<html>
<title> - DESIGNATE AS WILDERNESS LANDS IN ROCKY MOUNTAIN NATIONAL PARK; JAPANESE AMERICANS CONFINEMENT SITES; CONVEY LAND TO LEWIS AND CLARK VISITOR CENTER; INCLUDING COL. BARRETT FARM IN THE NPS; DESIGNATE THE NATIONAL MUSEUM OF WILDLIFE ART; AND GRAND TETON NATIONAL PARK LAND ADDITION</title>
<body><pre>[Senate Hearing 109-447]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-447

 
DESIGNATE AS WILDERNESS LANDS IN ROCKY MOUNTAIN NATIONAL PARK; JAPANESE 
  AMERICANS CONFINEMENT SITES; CONVEY LAND TO LEWIS AND CLARK VISITOR 
CENTER; INCLUDING COL. BARRETT FARM IN THE NPS; DESIGNATE THE NATIONAL 
  MUSEUM OF WILDLIFE ART; AND GRAND TETON NATIONAL PARK LAND ADDITION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                           S. 1510                               S. 1719

                           S. 1957                               S. 2034

                           S. 2252                               S. 2403

                           H.R. 1492                             H.R. 394


                                     
                               __________

                             APRIL 6, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
28-401                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD BURR, North Carolina         TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky
                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD BURR, North Carolina         RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
                                     ROBERT MENENDEZ, New Jersey

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     7
Enzi, Hon. Michael B., U.S. Senator from Wyoming.................     4
Inouye, Hon. Daniel K., U.S. Senator from Hawaii.................     2
Kennedy, Hon. Edward M., U.S. Senator from Massachusetts.........     2
Kerry, Hon. John F., U.S. Senator from Massachusetts.............     3
Masica, Sue, Associate Director, Park Planning, Facilities and 
  Lands, National Park Service, Department of the Interior.......     7
Salazar, Hon. Ken, U.S. Senator from Colorado....................    20
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1
Yamada, Gerald H., National Coordinator, Japanese American 
  National Heritage Coalition....................................    15

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    27

                              Appendix II

Additional material submitted for the record.....................    33


DESIGNATE AS WILDERNESS LANDS IN ROCKY MOUNTAIN NATIONAL PARK; JAPANESE 
  AMERICANS CONFINEMENT SITES; CONVEY LAND TO LEWIS AND CLARK VISITOR 
CENTER; INCLUDING COL. BARRETT FARM IN THE NPS; DESIGNATE THE NATIONAL 
  MUSEUM OF WILDLIFE ART; AND GRAND TETON NATIONAL PARK LAND ADDITION

                              ----------                              


                        THURSDAY, APRIL 6, 2006

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                     Washington DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

   OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM 
                            WYOMING

    Senator Thomas. Thank you all for being here. This, of 
course, is the Subcommittee on National Parks. We have several 
pieces of legislation to talk about today. I want to welcome, 
of course, Ms. Sue Masica from the National Park Service and 
Mr. Gerald Yamada from the Japanese American Heritage Coalition 
here today. And, of course, welcome my friend and partner, 
Senator Enzi from Wyoming.
    The purpose of this hearing is to receive testimony on six 
Senate bills and two House bills. S. 1510, a bill to designate 
as wilderness certain lands within the Rocky Mountain National 
Park in the State of Colorado. S. 1719 and H.R. 1492 are bills 
to provide for the preservation of the historic confinement 
sites where Japanese-Americans were detained during World War 
II and other purposes; S. 1957, a bill to authorize the 
Secretary of the Interior to convey to the Missouri River 
Basin's Lewis and Clark Interpretive Center and Visitor's 
Center Foundation certain Federal lands associated with the 
Lewis and Clark historic trail in Nebraska to be used as a 
historical interpretive site; S. 2034 and H.R. 394, bills to 
direct the Secretary of the Interior to conduct a study to 
evaluate the significance of the Colonel James Barret Farm in 
the Commonwealth of Massachusetts and assess the suitability 
and the feasibility of including the farm in the National Park 
System as part of the Minutemen National Historical Park; S. 
2252, a bill to designate the National Museum of Wildlife Art, 
located in Jackson, Wyoming, as the National Museum of Wildlife 
Art for the United States; and, finally, S. 2403, a bill to 
authorize the Secretary of the Interior to include in the 
boundaries of the Grand National Teton Park an interest in the 
lands at Grand Teton subdivision and for other purposes.
    So these are the bills that we have today. I'm glad to be 
joined by my friend from Colorado, Senator Salazar. Do you have 
any comments, sir?
    [The prepared statements of Senators Inouye, Kennedy and 
Kerry follow:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator From Hawaii

    Mr. Chairman and Members of the Committee on Energy and Natural 
Resources, on September 19, 2005, I introduced S. 1719, a bill that 
provides for the preservation of historic confinement sites where 
Japanese Americans were detained during World War II. I was initially 
approached by the Japanese American community to preserve these sites, 
and worked on S. 1719 on their behalf.
    More recently, a question was raised on the applicability of the 
bill to German and Italian Americans who were also confined. The 
purpose of this bill is to recognize and teach us that prejudice and 
wartime hysteria should never again be allowed to justify the violation 
of human dignity and the fundamental freedoms afforded under the 
Constitution. Created under this purpose, and based upon my reading of 
the bill, S. 1719 would also provide the Secretary the discretion to 
award grants for similar efforts by German and Italian American groups 
seeking to preserve sites where they were interned. I believe that the 
German and Italian Americans also have a stake in telling and 
preserving their internment history.
    S. 1719 is a bill that will help Japanese, German, and Italian 
Americans lead the way in teaching our country important lessons in 
civics. Mr. Chairman and Members of the Committee on Energy and Natural 
Resources, thank you for your time and consideration.
                                 ______
                                 
      Prepared Statement of Hon. Edward M. Kennedy, U.S. Senator 
                           From Massachusetts

    I greatly appreciate Chairman Thomas and Senator Akaka's scheduling 
this hearing and for the opportunity to support the House-passed bill 
that Congressman Meehan proposed. John Kerry and I have introduced 
companion legislation in the Senate. The bill is an essential step in 
preserving a very sacred part of the nation's history, Colonel James 
Barrett's Farm in Concord, Massachusetts. The bill asks the Secretary 
of Interior to conduct a boundary study of Minute Man National Park to 
evaluate the suitability of adding the Farm to the Park, and I also 
greatly appreciate the Park Service's support for the legislation.
    The Farm is already listed in the National Register of Historic 
Places, but it ought to be part of the National Park itself. It's 
located two miles from the Old North Bridge, where the famous battle 
took place at the beginning of Revolutionary War. The bridge is part of 
the Park, and Emerson immortalized it in his famous poem, ``The Concord 
Hymn,'' which I'm sure the Subcommittee is familiar with, and which was 
originally a hymn and was later sung at the dedication of the Concord 
Battle Monument in 1886 after Emerson had died. I'd like to include it 
in today's hearing record.

                            ``Concord Hymn''
                        By Ralph Waldo Emerson

                By the rude bridge that arched the flood,
                        Their flag to April's breeze unfurled;
                Here once the embattled farmers stood;
                        And fired the shot heard round the world.

                The foe long since in silence slept;
                        Alike the conqueror silent sleeps,
                And Time the ruined bridge has swept
                        Down the dark stream that seaward creeps.

                On this green bank, by this soft stream,
                        We place with joy a votive stone;
                That memory may their deeds redeem,
                        When, like our sires, our sons are gone.

                O Thou who made those heroes dare
                        To die, and leave their children free,
                Bid Time and Nature gently spare
                        The shaft we raised to them and Thee.

    Barrett's Farm was very much a part of that moment. Colonel James 
Barrett was one of the principal figures in battle and was the 
commander of the Middlesex militia regiment in the battle.
    He used his farm to store large supplies of cannons, gun powder and 
other munitions, and he oversaw the storage of other weapons in the 
town.
    The objective of the British troops in Boston that day was to march 
to Concord and seize the colonists' arsenals, and Colonel Barrett's 
farm was the principal target. Paul Revere's ride alerted the colonists 
to what was happening, and gave Barrett enough time to hide most of the 
munitions.
    In Lexington, on the way to Concord, the colonial militia briefly 
engaged the British forces and withdrew.
    When the British forces arrived in Concord, they occupied the town, 
sent detachments to search the farm and other sites, and stationed 
troops at the North Bridge. When the British set fire to the local 
courthouse and a blacksmith ship, Colonel Barrett gave the order to the 
militia to advance, but not to fire unless they were fired on. The 
British opened fired at Concord Bridge, and the patriots joined the 
battle and changed the course of history by forcing the British to 
retreat in disarray, with militia members rushing to the scene and 
fighting them all the way back to Boston along what is now called the 
Battle Road.
    Today, two weeks before the 231st anniversary of that famous 
battle, we have the opportunity to begin the process of permanently 
protecting Barrett's Farm, which is currently in the hands of Save Our 
Heritage, a conservation organization based in Concord.
    Save Our Heritage recently acquired the property and the historic 
farmhouse through private financing so that it could be held safely 
while Congress and the Park Service decide whether it should be 
included in Minute Man National Park. Save Our Heritage won't be able 
to maintain ownership of the property indefinitely, which is why it is 
so important for this bill to become law quickly so that the property 
can receive permanent protection through the Park Service.
    I'm confident that once the study is completed, the Park Service 
will decide that Barrett's Farm should be added to the Park. Few places 
are so important in the history of our nation.
    By voice vote last September, the House of Representatives approved 
H.R. 394--Congressman Meehan's legislation--on the needed study for 
Barrett's Farm. Our Senate bill is very similar, and I urge the 
Subcommittee to approve the House bill without amendment, so the full 
Committee and the Senate can approve it quickly and send it to the 
President.
    We have a rare opportunity to protect a truly unique landmark in 
our nation's history, and preserve it for future generations to visit 
and experience. I commend the Committee for scheduling this hearing, 
and I respectfully ask you to support its passage. Thank you very much.
                                 ______
                                 
        Prepared Statement of Hon. John F. Kerry, U.S. Senator 
                           From Massachusetts

    I would like to thank Chairman Thomas and Ranking Member Akaka for 
holding this hearing today. Of particular importance to me is the 
Subcommittee's consideration of S. 2034, the Colonel James Barrett Farm 
Study Act of 2005--a bill that Senator Kennedy and I support. The 
legislation directs the Secretary of the Interior to conduct a boundary 
study to evaluate the significance of the Colonel James Barrett Farm in 
Concord, Massachusetts, and to assess the suitability and feasibility 
of including Barrett's Farm in the National Park System as part of 
Minute Man National Historical Park.
    There is no question that Colonel Barrett's farm played a major 
role in the early history of our nation. Listed in the National 
Register of Historic Places thirty years ago, Barrett's farm is part of 
not only the history of Massachusetts but of our nation. Encompassing 
the farm into the existing Minute Man National Historic Park would be a 
great addition in the continued preservation of our history.
    As you may know, Colonel James Barrett was the commander of the 
Middlesex militia during the Revolutionary war and his farm was a 
central depository for American revolutionaries' supplies. On April 19, 
1775, General Thomas Gage, the commander of all British Forces in North 
America, ordered 700 of his troops to march to Barrett's Farm and 
destroy the supplies stored there. Fortunately, the colonists learned 
of the plot ahead of time and sent Paul Revere on his famous ride, 
calling his countrymen to arms. Colonel Barrett and his sons were able 
to hide their supplies in furrows they dug in the fields, saving the 
supplies that would be vital to the survival of the colonials. 
Ultimately, the colonials and the British met at the North Bridge in 
Concord, where the ``shot heard 'round the world'' was fired--launching 
our war for independence.
    Again, I want to thank you for holding a hearing on S. 2034 today. 
I look forward to working with the Subcommittee and hopefully soon 
passing this important piece of legislation.

    Senator Salazar. Thank you Chairman Thomas. Let me reserve 
my comments for the legislation on Rocky Mountain Wilderness 
Area when you call up that bill, in accommodation to Senator 
Enzi.
    Senator Thomas. Fine.
    Senator Salazar. Will that be okay with you?
    Senator Thomas. We'll do that, that's fine. Thank you very 
much.
    We're very pleased this morning to have Senator Enzi from 
Wyoming here. Where is that? Wyoming? We appreciate you being 
here and you wanted to comment, I believe, on the Jackson Hole 
bill that's in here. Thank you for being here.

        STATEMENT OF HON. MICHAEL B. ENZI, U.S. SENATOR 
                          FROM WYOMING

    Senator Enzi. Well thank you very much for allowing me to 
speak today on S. 2252 and in answer to your first question, 
it's that big square State that's right above our neighbor, Mr. 
Salazar's State, which is the other big square State, both of 
which would like to have a little bit of change in boundaries 
so that we can have on a lapel pin that's recognizable.
    But I also want to thank you for co-sponsoring the 
legislation that recognizes the best wildlife art museum in 
both Wyoming and in the Nation. I'm testifying in support of a 
bill that provides a national designation for the National 
Museum of Wildlife Art that's in Jackson, Wyoming. And, as it 
should, a national designation signifies something unique that 
belongs to all the people of our Nation.
    Just as President Theodore Roosevelt recognized the 
uniqueness of Devil's Tower in Wyoming when he proclaimed it 
the first national monument, my bill recognizes the uniqueness 
of the National Museum of Wildlife Art in Jackson. Wildlife 
museums aren't unusual in the United States, art museums aren't 
unusual in the United States. This museum, however, sets itself 
apart from all the others because it focuses on wildlife art. 
This interdisciplinary approach fosters education as the museum 
uses are to teach people about wildlife and encourages wildlife 
lovers to explore art. The museum's educational focus is clear 
in their motto, which is bringing people, wildlife, and fine 
art together.
    It's my understanding that the National Park Service is 
taking no position on the bill. I can understand their concern 
that we assure that there is not another National Museum of 
Wildlife Art that would object to this designation. In my 
exploration I have not found one. I would mention that the 
museum is currently called the National Museum of Wildlife Art 
and no one has objected to that. It just didn't have the 
national recognition of the name. So I'm certain that that's 
the only one.
    However, Congress, through its committee hearings and 
deliberations, can explore the justification for providing a 
national designation to the National Museum of Wildlife Art. 
The first question should be, is this a reputable museum. The 
strongest voice answering yes to that question is the museum's 
accreditation with the American Association of Museums. Any 
serious museum strives for this accreditation and the National 
Museum of Wildlife Art is the only museum specifically focused 
on wildlife art that is accredited by the AAM. In addition, the 
designation accurately represents the museum. They have a 
broad, comprehensive and national collection that considers the 
entire history of wildlife art in America and does not focus on 
any one type of animal, even though they're right across the 
road from the elk pasture in Jackson.
    This bill is not an attempt to provide an avenue for 
Federal appropriations to the museum. This testimony will 
provide a record that I do not intend to seek funding for the 
museum to accompany the designation. However, this designation 
will ensure the national reputation, the awareness, and the 
future of the museum. The designation would be significant on 
the State, national, and international levels because it would 
mean no other institution can claim the name National Museum of 
Wildlife Art. It's currently the premiere museum dedicated to 
enrich and inspire public appreciate and knowledge of fine art 
related to nature and wildlife. The museum's mission is to 
explore humanity's relationship with nature by collecting fine 
art and presenting exceptional exhibitions and educational 
programs. The national designation would acknowledge that a 
major museum in Wyoming is the most important museum in the 
Nation of its kind.
    The National Museum of Wildlife Art was founded in 1987 
with a private gift of a collection of art and is accredited 
with the American Association of Museums. I'd also ask consent 
that pictures of the museum and the surrounding area be a part 
of the record.
    Senator Thomas. They will be made part of the record.
    Senator Enzi. The National Museum of Wildlife Art features 
a collection of over two thousand pieces of art portraying 
wildlife dating from two thousand B.C. to the present. The 
collection chronicles much of the history of wildlife art 
focusing primarily on European and American painting and 
sculpture. The collection of American art from the 19th and 
20th centuries is particularly strong, recording European 
exploration in the American West. Many of these works predate 
photography, making them vital representations of the frontier 
era in the history of the United States.
    Using the collection as a base, the central themes to the 
museum's programming are connections between people, wildlife 
and fine art. Even before this designation, people from across 
the United States had discovered the National Museum of 
Wildlife Art. Since its inception it's become an American West 
destination attraction with an annual attendance of 92,000 
visitors from all over the world and an award-winning website 
that receives more than ten thousand visits per week.
    These visitors fine wildlife on the walls of the museum, 
but also outside its doors. The National Museum of Wildlife Art 
is housed in an architecturally significant and award-winning 
51 thousand square foot facility that overlooks the 28,000 acre 
National Elk Refuge and is adjacent to Grand Teton National 
Park. The museum displays and interprets this wildlife art in 
one of the few remaining areas of the United States where 
native wildlife roams abundantly.
    The works in the museum are united by their subject and 
their quality. The permanent collection of the National Museum 
of Wildlife Art has grown to more than three thousand works by 
important historic American artists, including Edward Hicks, 
Anna Hyatt, Anna Hyatt-Huntington, Charlie M. Russell, William 
Merritt Chase, Alexander Caldwell, as well as contemporary 
American artists, Steve Kestrel, Bart Walter, Nancy Howe, Jamie 
Wyeth, and a number of others. In fact, Conrad Schwiering has 
quite a collection there. He designed the Wyoming stamp. And 
they're getting ready to put together an exhibit by Thomas 
Moran whose paintings made Yellowstone Park famous.
    The National Museum of Wildlife Art seeks to educate a 
diverse audience through collecting fine art focused on 
wildlife, presenting exceptional exhibitions, providing 
community, regional, national, and international outreach and 
presenting extensive educational programming for adults and 
children. A national designation presents a great opportunity 
to use this invaluable resource of the National Museum of 
Wildlife Art to teach the Nation's school children through 
onsite visits, traveling exhibits, classroom curriculum, online 
distance learning and other educational initiatives. It expands 
the goals of the wildlife museum.
    I look forward to officially recognizing the renown of the 
National Museum of Wildlife Art through this bill. And I thank 
you for this opportunity. I'll take any questions.
    Senator Thomas. Thank you very much, Senator. We're all 
very proud of that facility in Wyoming. It's unusual in that 
you can go in there and look out the window and see about two, 
three dozen elk out there grazing around and so on, as well as 
the Tetons. So thank you sir, for your----
    Senator Salazar. Mr. Chairman?
    Senator Thomas. Yes sir?
    Senator Salazar. May I make a comment prior to the 
departure of Senator Enzi on this bill?
    Senator Thomas. Yes sir.
    Senator Salazar. I just want to--Mr. Chairman, to you and 
to Senator Enzi, make a quick point on the common heritage that 
we share in Colorado and Wyoming with respect to wildlife and 
water and whole host of issues that so effect our two States. 
And, even though we are the two rectangle States of the Nation, 
I think that your statement about a national wildlife museum 
puts its finger on the very serious opportunity that we have in 
both Colorado and Wyoming with respect to wildlife. For us in 
the West who struggle every day for trying to find jobs in 
rural America, we know the tremendous contribution that hunting 
and wildlife watching make to our communities. And so I think 
you have your hands on legislation that makes a lot of sense as 
we move forward to try to preserve and celebrate the wildlife 
heritage of Wyoming and the West.
    Senator Thomas. Thank you.
    Senator Salazar. Thank you, sir.
    Senator Thomas. Senator Akaka, do you have any comments?

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you Mr. Chairman.
    Mr. Chairman, I just want to ask whether you would want to 
excuse Senator Enzi or have him listen to my statement?
    Senator Thomas. Oh, I think he certainly ought to listen to 
your statement.
    Senator Akaka. Mr. Chairman, I want to thank you for 
scheduling this hearing, which includes bills of particular 
interest to several members of this committee. I would like to 
take a minute to briefly discussion S. 1719, Senator Inouye's 
bill to establish a program within the National Park Service to 
help preserve historic confinement sites where Japanese-
Americans were detained during World War II. I am pleased to be 
an original co-sponsor of this legislation. The House of 
Representatives has already passed a companion measure 
sponsored by Congressman Bill Thomas of California. Both bills 
have brought bi-partisan support, including both Senators from 
Utah and one of the 14 cosponsors of the House-passed bill.
    I would like to extend my appreciation to my colleagues in 
the House and Senate for their support to ensure that these 
historic sites are appropriately protected. These bills will 
help acknowledge the experience of Japanese-American citizens 
that were detained, and also help educate the public on a very 
sad but important chapter in our Nation's history that all 
citizens, the elderly, the young, must continue to learn from.
    I think it's important to make clear that this bill will 
only involve sites on private land, if the land owner consents. 
And that this bill does not provide for any Federal management 
or special designation. The bill also limits the use of Federal 
funds to assist in land acquisition at four specific sites 
where there is strong local support for potential land 
acquisition. The other sites could not be acquired with funds 
from this act.
    Mr. Chairman, I would like to welcome our two witnesses 
today, Sue Masica from the National Park Service and Mr. Gerald 
Yamada with the Japanese- American National Heritage Coalition 
to the committee today. And I look forward to hearing from both 
of them as we discuss the bill. Thank you very much.
    Senator Thomas. Thank you Senator. Now, if our witnesses 
will take their place, please. Why don't you both come to the 
table. Ms. Masica, nice to have you from the Park Service, and 
Mr. Yamada, glad to have you, sir.
    Sue, if you'd begin please.

  STATEMENT OF SUE MASICA, ASSOCIATE DIRECTOR, PARK PLANNING, 
FACILITIES AND LANDS, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Masica. Thank you Mr. Chairman. I'm pleased to be here 
today to present the administration's position on a series of 
bills. Since my written statements are all part of the record, 
I'll summarize briefly the prepared response.
    Mr. Chairman. Thank you.
    Ms. Masica. S. 1510, the Rocky Mountain Wilderness bill 
would designate approximately 250 thousand acres of Rocky 
Mountain National Park back country as wilderness. These lands 
are currently managed as wilderness and have been since 1974. 
Present road and water corridors and all developed areas are 
excluded from the recommended wilderness. The wilderness 
designation would not alter activities or access within the 
park. The administration supports this bill if amended to 
reflect the recent discussions that have been ongoing with the 
town of Grand Lake, Grant County and other interested parties.
    S. 1719 and H.R. 1492, having to do with the Japanese-
American confinement sites will establish a grant program to 
provide a system for the preservation of historic confinement 
sites. The Park Service is actively involved in preserving 
resources associated with the experiences of Japanese-Americans 
during World War II, and collecting and disseminating 
information on this unfortunate chapter in our Nation's 
history. Since 1992, two units have been added to the National 
Park System to help us learn from our history, Manzanar in 
California and Minidoka in Idaho.
    The Park Service is also completing a National Historic 
Landmark theme study of sites associated with the detention of 
Japanese-Americans during World War II. Two internment camp 
sites received National Historic Landmark designations this 
past February--Tule Lake in California and Granada in Colorado. 
Because of the financial implications of the proposed $38 
million grant program, the administration does not support the 
approach taken by these two bills.
    S. 1957 would authorize the Secretary of the Interior to 
convey to the Missouri River Basin Lewis and Clark Interpretive 
Trail and Visitor Center Foundation certain Federal land 
associated with the Lewis and Clark National Historic Trail. 
The transfer would involve two parcels of land in Nebraska 
City, Nebraska. The site contains a visitor center recently 
constructed with a combination of Federal and non-Federal 
funds. The Department supports enactment of the bill with an 
amendment to substitute a map reference for the metes and 
bounds description presently contained in the legislation.
    S. 2034 and H.R. 394, the Barrett Farms study, would 
authorize the Park Service to conduct a study to evaluate the 
significance of the Colonel James Barrett Farm in 
Massachusetts, and to assess the suitability and feasibility of 
including the farm in the Park System. We would conduct a 
boundary study of the property and its significance with 
respect to the Revolutionary War. The study would also examine 
the feasibility of administering the farm as part of the Minute 
Man National Historical Park. Colonel Barrett was one of the 
leading figures in the events that began the American 
Revolution in April of 1775. Barrett's farm was the impetus for 
the British excursion to Concord on April 18, 1775. And the 
vigorous work of Colonel Barrett and his militia was the key 
reason for the British retreat following the encounter at the 
north bridge in Concord. The Department supports enactment of 
this legislation.
    S. 2252 would change the name of the museum in Jackson, 
Wyoming from the National Museum of Wildlife Art to the 
National Museum of Wildlife Art of the United States. The 
legislation involves the renaming of a private museum that is 
not located within the boundaries of any federally owned 
property and is not under Federal jurisdiction. As a result, 
the Department has no position on S. 2252.
    Lastly, S. 2403, the Grand Teton boundary modification, 
would authorize the Park Service to include within the 
boundaries of Grand Teton National Park approximately 49 acres 
adjacent to the park and to adjust the boundary accordingly. 
The lands would be donated at no cost to the Federal Government 
except for closing and other costs, which are estimated to be 
about $300 thousand. The Park Service does not anticipate any 
additional costs associated with the management or 
administration of the lands to be donated. The Department 
supports S. 2403 with an amendment to clarify the terms under 
which the Secretary of the Interior may accept the donation. We 
recommend donation language be used that is similar to other 
donation transactions.
    And with that, Mr. Chairman, any questions I would be happy 
to respond to any questions.
    [The prepared statements of Ms. Masica follow:]

 Prepared Statement of Sue Masica, Associate Director, Park Planning, 
    Facilities, and Lands, National Park Service, Department of the 
                                Interior

                                S. 1510
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 1510, a bill to designate as wilderness certain lands within Rocky 
Mountain National Park.
    The Department supports S. 1510 if amended to reflect recent 
discussions with the Town of Grand Lake, Grand County, and other 
interested parties.
    S. 1510 would designate approximately 249,339 acres of Rocky 
Mountain National Park's (park) backcountry in the National Wilderness 
Preservation System. This represents approximately 95% of the park's 
total acreage, lands that currently are managed as wilderness.
    In 1964, Congress designated Rocky Mountain National Park as a 
wilderness study area. In 1974, President Nixon recommended to Congress 
239,835 acres for immediate designation and 5,169 acres for potential 
designation as wilderness in the park. S. 1510 increases the 
recommended acreage amount based on modifications brought about by land 
acquisition and boundary adjustments since 1974.
    Present road, water, and utility corridors, and all developed 
areas, are excluded from recommended wilderness. Wilderness designation 
would not alter any current visitor activities or access within the 
park, and would allow visitors to utilize the park in the same ways and 
locations that they presently enjoy.
    Federal reserved water rights for park purposes are not an issue 
related to wilderness designation as water rights for the park have 
been adjudicated through the State of Colorado water courts. 
Consequently, no water rights claims for wilderness purposes are needed 
or desired by the National Park Service (NPS).
    After holding public meetings on the proposed designation in June 
2005, the gateway communities of Estes Park and Grand Lake, and the 
counties of Grand and Larimer endorsed wilderness designation for Rocky 
Mountain National Park, subject to specific boundary modifications on 
the west boundary of the park. These modifications would provide an 
area of non-wilderness around the Town of Grand Lake in order to ensure 
that the park could continue to actively manage hazardous fuels and 
other uses that might affect the Town. The proposed modifications would 
also reserve a corridor along Shadow Mountain and Granby reservoirs for 
the possible building of a non-motorized hike/bike trail along the east 
shore of these two reservoirs. The building of this trail would be 
subject to the normal NPS planning process for such proposals including 
analysis under the National Environmental Policy Act.
    We would be happy to work with the Committee on amendments to the 
bill that would reflect the proposals made by the local communities.
    That concludes my statement. I would be happy to answer any 
questions that you or other members of the subcommittee might have.

                         S. 1719 AND H.R. 1492

    Mr. Chairman, thank you for the opportunity to appear before you to 
present the views of the Department of the Interior on S. 1719 and H.R. 
1492, legislation to provide for the preservation of the historic 
confinement sites where Japanese Americans were detained during World 
War II. H.R. 1492 was passed by the House on November 16, 2005.
    The Department recognizes the importance of taking steps to more 
fully preserve the history of the experience of Japanese Americans 
during World War II, when many were forcibly removed from their homes 
and sent to live at internment camps. However, we do not support the 
approach taken by S. 1719 and H.R. 1492 to preserve this history. For 
many years, the Department has opposed legislation authorizing 
appropriations for grants for specified non-National Park Service 
projects. Many of these projects represent an important contribution to 
the preservation of our Nation's history, as would be the case with 
projects associated with the Japanese American internment camps. Each 
time such legislation is enacted and appropriations follow, it further 
reduces a limited amount of discretionary funds available to address 
the priority needs of our national parks and other programs 
administered by the National Park Service. With the emphasis we have 
placed on fulfilling our core mission of operating units of the 
National Park System and on the President's initiative to reduce the 
deferred maintenance backlog, it has become more important than ever to 
avoid authorizing funding for non-National Park Service projects that 
would draw funds from the National Park Service's budget.
    S. 1719 and H.R. 1492, which contain identical provisions, would 
require the Secretary of the Interior to establish a program within the 
National Park Service to administer grants to public and private 
entities to protect, restore, interpret, acquire and take other actions 
with respect to the ten internment camps and other historically 
significant locations where Japanese Americans were detained during 
World War II. The grants would be made in consultation with the 
Japanese American National Heritage Coalition, an umbrella organization 
of groups that are involved in efforts to preserve one or more of the 
Japanese American detention sites. The bill would authorize 
appropriations of $38 million for this purpose.
    The Department is actively involved in preserving resources 
associated with the experience of Japanese Americans during World War 
II and collecting and disseminating information on this unfortunate 
chapter of our Nation's history. As recently as 1990, the National Park 
Service had virtually no role in preserving and interpreting this 
story. That changed in 1992, when Congress (1) authorized the 
establishment of Manzanar National Historic Site in central California, 
(2) directed the National Park Service to conduct a National Historic 
Landmark (NHL) theme study of sites associated with the detention of 
Japanese Americans during World War II, and (3) authorized a memorial 
in the Nation's Capital to honor Japanese American patriotism in World 
War II.
    Today, the National Park Service administers two of the ten 
internment camps. In addition to Manzanar, the Minidoka Relocation 
Center in Idaho was added as a unit of the National Park System in 2001 
following a presidential proclamation that designated the site as 
Minidoka Internment National Monument. Manzanar is a now a well-
established unit; its visitor center was opened two years ago and its 
annual visitation is about 78,000. Minidoka is preparing a General 
Management Plan and is still under development.
    In 1999, to provide the documentation needed for the NHL theme 
study authorized by Congress, the National Park Service's Western 
Archeological and Conservation Center published an extensive 
compilation and analysis of resources associated with these sites. This 
compilation, Confinement and Ethnicity: An Overview of World War II 
Japanese American Relocation Sites, has proven to be an invaluable 
source of information about this subject not only for the National Park 
Service but also for the many organizations that are involved in the 
efforts to preserve these sites.
    The NHL theme study directed by Congress is nearly complete. Based 
on that study, two internment camps were designated in February as 
National Historic Landmarks: Tule Lake in California, and Granada in 
Colorado. National Historic Landmark designation is the highest level 
of historic significance our Nation bestows on a place. As designated 
sites, they are eligible for technical assistance available through our 
NHL program and they have an advantage in competing for public and 
private preservation grants.
    In addition to its designation as a NHL, Tule Lake received a Save 
America's Treasures matching grant of $200,000 in the Interior 
appropriations act for Fiscal Year 2006. The grant will be co-managed 
by the Tule Lake Committee for Preservation of the Tule Lake Camp and 
the National Park Service and used to stabilize the carpenters' shop 
and to correct drainage problems. The National Park Service is 
providing historic preservation assistance to the Bureau of 
Reclamation, which has administrative jurisdiction over part of the 
Tule Lake property, and to State agencies, which own the remaining 
part. The National Park Service is also providing technical assistance 
to Departmental bureaus and others to help preserve Heart Mountain in 
Wyoming, Topaz in Utah, and Granada in Colorado.
    The National Park Service is also close to finalizing and 
transmitting to Congress a special resource study of Bainbridge Island, 
Washington, which was the first location from which Japanese Americans 
were forcibly removed from their homes following the issuance of 
Executive Order 9066, which provided the authority for the detention of 
Japanese Americans. This study, which was authorized by Congress in 
2002, analyzes different alternatives for memorializing, preserving, 
and interpreting this important site. Our Pacific West Regional Office, 
through the National Park Service's Preservation Partnership programs, 
has also provided technical assistance to the Bainbridge Island 
community to document the community's internment experiences and the 
history of the Japanese on Bainbridge. That office also provided 
funding to train Asian-American students in documenting sites important 
to the history of their communities.
    In addition, the National Park Service, through its National Mall 
and Memorial Parks unit, administers the memorial to Japanese American 
Patriotism in World War II, which is located about two blocks north of 
the U.S. Capitol Building. Our National Capital Region office assisted 
in establishing the memorial. We helped secure an appropriate site for 
the memorial, assisted in its design, and facilitated the approval 
process for it. The memorial honors the approximately 120,000 Japanese 
Americans who were relocated to the internment camps. It incorporates 
the names and locations of the camps, as well as the names of Japanese 
Americans who died in military service to the United States during 
World War II.
    A few examples of other activities we have engaged in include:

  <bullet> Establishing a lesson plan on the War Relocation Camps of 
        World War II on the National Park Service's ``Teaching with 
        Historic Places'' web site;
  <bullet> Conducting oral history recording projects that entailed 
        recording the histories of internees and other individuals 
        associated with the World War II internment; and
  <bullet> Providing technical assistance to the Jerome County 
        Historical Society, Idaho, to copy original newspapers from 
        1942-1945 onto microfilm for reference and research purposes, 
        and technical assistance to develop methods to preserve 
        internment-related materials for long-term preservation.

    The Department would like to continue and build on the efforts we 
are already involved in on this subject. In addition to the activities 
already mentioned, there are other ways the National Park Service could 
enhance the role we play in protecting resources and interpreting the 
history of the Japanese American experience in World War II at a 
relatively small cost. For example, working in partnership with other 
entities that own and administer the internment camp sites, we could 
develop a comprehensive interpretative plan for all ten sites. We could 
designate a staff person to coordinate the preservation and 
interpretation activities among the different sites. Another 
possibility would be to publish a handbook on the internment camps that 
would be available at National Park Service bookstores. We could also 
develop a web-based travel itinerary on the sites.
    To summarize, we believe there are appropriate ways for the 
National Park Service to expand upon its already significant role in 
increasing public awareness and understanding of the Japanese American 
experience during World War II. But we do not believe it is appropriate 
for the National Park Service budget to be used as a funding source for 
grants to non-Federal entities to undertake costly restoration and 
other types of projects at the sites of these camps. We therefore 
cannot support S. 1719 and H.R. 1492.
    Mr. Chairman, this concludes my prepared remarks. I will be happy 
to respond to questions from you or other members of the committee.

                                S. 1957

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1957, a bill to authorize the Secretary of 
Interior to convey to the Missouri River Basin Lewis and Clark 
Interpretive Trail and Visitor Center Foundation, Inc. certain Federal 
land associated with the Lewis and Clark National Historic Trail in 
Nebraska, to be used as an historical interpretive site along the 
trail. The Department supports enactment of S. 1957, with an amendment.
    S. 1957 would convey without consideration, all right, title, and 
interest of the United States in two parcels of land at 100 Valmont 
Drive, Nebraska City, Nebraska to the Missouri River Basin Lewis and 
Clark Interpretive Trail and Visitor Center Foundation, Inc. 
(Foundation). The Foundation would bear all the costs associated with 
the conveyance. If the Foundation determines to discontinue use of the 
land as a historic site and interpretive center, the land shall be 
conveyed back to the Secretary of the Interior.
    The three-story Missouri River Basin Lewis & Clark Interpretive 
Trail & Visitor Center (Center), authorized by the National Trails 
System Act (NTSA), was designed and constructed by the National Park 
Service (NPS). The Center is located on the Federally owned 78-acre 
site acquired for this purpose, and focuses on the flora and fauna and 
scientific discoveries recorded by the Lewis and Clark expedition and 
the Native American people's role in the success of the Corp of 
Discovery. There is a Keelboat Exhibition Room on the entry level with 
an authentic replica of the 55-foot-long keelboat used on the journey, 
and the lower walkout level houses a Theater Educational Room and the 
Young Explorer's Discovery Wing. There also is an outdoor classroom and 
an unobstructed view of the Missouri River, part of the route used by 
Lewis and Clark as they pulled upriver and walked the banks to make the 
scientific observations and collect specimens of flora and fauna. There 
are 11 other historic and interpretive facilities along the Lewis and 
Clark National Historic Trail.
    The NTSA specifies that, wherever possible, the facility is to be 
operated by a non-federal entity. The Foundation was established as the 
non-federal operating partner and raised the necessary funds. The NPS 
has provided approximately $1.1 million to purchase the land, to 
provide design and construction supervision services, and to develop 
the facilities and exhibits. The Foundation raised about $2.2 million 
toward the cost and development of the visitor center. Construction of 
the facility began in the spring of 2003 and was completed in July 
2004. The Foundation has operated the Center since July 2004, with a 
substantial Federal subsidy.
    The Midwest Region of NPS currently subsidizes the Center out of 
ONPS base ($150,000), contingency ($32,000), and cyclic ($18,000) 
funding, for about $200,000 per year. This helps pay salaries, 
utilities, routine maintenance, and other needed expenses. It is 
estimated that it would cost approximately $574,000 per year for the 
NPS to operate the Center for a traditional 7-day per week schedule.
    By owning the Center, the Foundation could collect entrance and 
special use fees to supplement donations for operations and 
maintenance. Annual visitation for calendar year 2005 was 27,105; based 
on a typical $5 entrance fee, that could result in $135,525. The 
Foundation projects it could collect approximately $88,000 in special 
use fees per year. The two fee types could thus generate about $223,525 
per year.
    The passage of S. 1957 would authorize $150,000 a year for 10 years 
to assist in the operation of the facility. The NPS spends 
approximately $50,000 more than this amount to subsidize current 
operations. The savings would then be used to assist with other trail 
partnerships and perhaps contingency issues in other national park 
units of the Midwest Region.
    The Department recommends that section 1(a) be amended to include a 
map reference to replace the metes and bounds description of the two 
parcels to be conveyed.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared testimony. I would be pleased to answer any 
questions you or other members of the subcommittee may have.

                          S. 2034 AND H.R. 394

    Mr. Chairman, thank you for the opportunity to appear before your 
committee to present the views of the Department of the Interior on S. 
2034 and H.R. 394, to authorize the Secretary of the Interior to 
conduct a study to evaluate the significance of the Colonel James 
Barrett Farm in the Commonwealth of Massachusetts, and to assess the 
suitability and feasibility of including the farm in the National Park 
System as part of the Minute Man National Historical Park, and for 
other purposes. The Department supports the enactment of this bill.
    If enacted, the bill would direct the Secretary to conduct a 
boundary study to evaluate the significance of Barrett's Farm, and to 
assess the suitability and feasibility of including the Farm as part of 
the Minute Man National Historical Park, a unit of the National Park 
System. The study, which is to be completed within two years after 
funds are made available for it, is to include an analysis of Barrett's 
Farm's significance with respect to the Revolutionary War. It must also 
analyze opportunities for public enjoyment of the property as part of 
Minute Man National Historical Park, and any operational, management, 
and private property issues that must be considered if the farm is 
added to the park. In addition, the study must include a determination 
by the Secretary of the feasibility of administering the farm as part 
of the Minute Man National Historical Park, taking into account its 
size, configuration, costs and any other appropriate factors, as well 
as an evaluation of other alternatives for management and resource 
protection of the property.
    The Colonel James Barrett Farm is located at 448 Barrett's Mill 
Road, Concord, Massachusetts, two miles from the town center and from 
Minute Man National Historical Park. The Barrett House was the home of 
Colonel James Barrett (1710-1779), commander of Middlesex County 
militia and one of the leading figures in the events that began the 
American Revolution in April, 1775. The property comprises six acres 
and includes land that has been farmed continuously since the 18th 
century as well as the historic 1705 farm house. Much of the 
surrounding acreage is owned by the Town of Concord and managed as 
agricultural conservation land.
    The proposed study area of six acres is coterminous with the 
property listed on the National Register of Historic Places and 
includes abutting properties that once were part of the original farm. 
In addition, the National Park Service recommends that approximately 40 
acres of the town-owned lands which directly abut the farm (and which 
were once part of the original farm) also be included in the study 
area. Inclusion of these lands in the study area would allow the NPS to 
explore the options for increased collaboration with the town and for 
ways to support long-term management should Barrett's Farm be acquired 
and managed by the National Park Service in the future. The Town of 
Concord has expressed its support for inclusion of these resources in 
the study.
    Colonel Barrett's Farm was a major hiding place for the colonists' 
stores of arms and ammunition. It was the farthest point that was 
targeted by the British expeditionary force sent from Boston to seize 
these weapons. The British troops headed there on April 19, 1775 but 
found nothing, the residents having been alerted by Paul Revere several 
days earlier, in time to hide muskets, cannons and powder in the nearby 
fields. On that same day, Colonel Barrett ordered the advance to 
Concord's North Bridge that resulted in ``the shot heard 'round the 
world'' and the start of the Revolutionary War.
    Minute Man National Historical Park encompasses 971 acres and 
includes the North Bridge, Lexington Green and the Battle Road trail, 
where the British both advanced and retreated. Including Barrett's Farm 
within the boundaries of Minute Man National Historical Park appears to 
offer many opportunities for resource preservation and interpretation. 
Barrett's Farm was the impetus for the British excursion to Concord on 
April 18, 1775 and the vigorous work of Colonel Barrett and his militia 
was the key reason for the British retreat following the encounter at 
the North Bridge.
    The farm was considered for inclusion when Minute Man National 
Historical Park was established in 1959, but was at that time in 
private ownership and not available for acquisition. It has since been 
purchased by Save Our Heritage, a local nonprofit organization, which 
seeks to preserve it. The group has been working closely with the Town 
of Concord and has raised $2 million to acquire and stabilize the 
property.
    We believe that this study would allow the Secretary to explore 
further the feasibility of adding this important historical property to 
the National Park System.
    Mr. Chairman, thank you for the opportunity to comment. This 
concludes my prepared remarks and I will be happy to answer any 
questions you or other committee members might have.

                                S. 2252

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2252, a bill to designate the National Museum of Wildlife Art as the 
National Museum of Wildlife Art of the United States.
    The Department has no position on S. 2252 since it involves the 
renaming of a private museum that is not located within the boundaries 
of any federally owned property and is not under federal jurisdiction. 
However, the Administration would not support future federal funding 
for a newly designated National Museum of Wildlife Art of the United 
States as proposed in this bill. Also, while we are not aware of one, 
prior to moving forward with this bill we would encourage the 
subcommittee to determine that there is not another National Museum of 
Wildlife Art that might object to the redesignation of this museum.
    The National Museum of Wildlife Art is a private, non-profit entity 
located just outside of Jackson, Wyoming, across from the National Elk 
Refuge and only a short distance from Grand Teton National Park. 
Although the museum is not affiliated with the park, it supports the 
park's mission to preserve and protect wildlife and serves many of the 
same visitors.
    Grand Teton National Park has a relationship with the National 
Museum of Wildlife Art. Currently, the park and the museum are working 
together on a special exhibition of the works of Thomas Moran, one of 
the premier painters of the American West, and the artist who 
accompanied the Hayden Expedition into Yellowstone in 1871. Moran is 
perhaps most widely known for his monumental paintings of Yellowstone, 
works that showed the American people for the first time the 
spectacular natural treasures of the area and inspired them to preserve 
it as the world's first national park. The area that was to become 
Grand Teton National Park was also the subject of Moran's brush, and 
the park has several of his works in its museum collection. This 
summer, those works will be on loan to the National Museum of Wildlife 
Art and displayed as part of an exhibition celebrating the 125th 
anniversary of the Hayden Expedition that first explored and documented 
the region that is now Yellowstone National Park. Additionally, we 
expect to continue our close relationship with the museum in other ways 
that are of interest and benefit to both parties.
    That concludes my testimony, I would be glad to answer any 
questions that you or other members of the subcommittee may have.

                                S. 2403

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present the views of the Department of the Interior on 
S. 2403, a bill to authorize the Secretary of the Interior to include 
in the boundaries of the Grand Teton National Park land and interests 
in land of the GT Park Subdivision, and for other purposes. The 
Department supports S. 2403 with one amendment.
    S. 2403 would direct the Secretary of the Interior (Secretary) to 
accept, by donation, approximately 49 acres adjacent to Grand Teton 
National Park, and upon donation, adjust the park boundary to include 
these lands within the park and to administer the acquired lands in 
accordance with all applicable laws. In addition, the Secretary would 
be prohibited from selling, donating, exchanging, or otherwise 
transferring the acquired land without authorization from Congress. The 
lands added to the boundary would be donated at no cost to the federal 
government, and no additional costs would be associated with management 
or administration of the donated lands. Costs that would be associated 
with the conveyance of the land include closing and other associated 
costs. We estimate those costs to be approximately $300,000, and we 
currently do not have a funding source identified for these costs.
    The privately owned land that is the subject of S. 2403 is located 
approximately one mile from the major road through the park and is 
visible from that road. The land consists of eight lots that total 
49.67 acres and are located near the Lost Creek Ranch, adjacent to the 
park's eastern boundary. Similar in character and quality to adjacent 
park lands, the lots are primarily grassland and sagebrush meadow and 
provide habitat for a wide variety of wildlife including elk, deer, 
antelope, bison, coyotes, and wolves. The lots offer spectacular and 
unobstructed views of the Teton Range across the broad valley of 
Jackson Hole.
    The National Park System includes countless examples of 
philanthropic efforts that have added immeasurably to the preservation 
of our Nation's natural and cultural treasures. Nowhere is this more 
evident than at Grand Teton National Park, where the gift of John D. 
Rockefeller, Jr. in 1949, of more than 38,000 acres, helped to ensure 
the creation of the park. Today, the spirit of philanthropy is very 
much alive at Grand Teton, and a prime example is the extraordinary 
generosity of Gerald T. Halpin and his family. Of the eight lots which 
are the subject of this bill, one is owned by the Halpin family, and 
the other seven were previously donated by the Halpins to several 
foundations with the understanding that they would ultimately be 
donated to the federal government for inclusion in Grand Teton National 
Park. These foundations include the National Park Foundation, the 
National Fish and Wildlife Foundation, and the Grand Teton National 
Park Foundation.
    Inclusion of these lands within Grand Teton National Park cannot be 
accomplished without this legislation. When Congress established the 
park in 1950, it included a provision in the park's enabling 
legislation that prohibited any expansion of national parks or 
monuments in the State of Wyoming without the express authorization of 
Congress.
    We recommend one amendment to the bill. Section 3(a) as written may 
imply that the Secretary shall accept the donation of the land 
regardless of any potential environmental hazards on the land or the 
condition of the title. We recommend donation language that has been 
used in other similar donation transactions and is attached to this 
testimony.
    Mr. Chairman, we wish to thank you for your efforts in sponsoring 
and introducing this legislation. It is the product of many generous 
and forward-looking people working together to continue protecting 
Grand Teton National Park for the American people.
    That concludes my statement. I would be glad to answer any 
questions that you or other members of the subcommittee might have.

                     Proposed Amendment for S. 2403

    Page 2, strike lines 18-20 and insert the following: ``(a) The 
Secretary is authorized to acquire, by donation, lands and interests in 
land in the Subdivision.''.

    Senator Thomas. All right. Thank you very much. Mr. Yamada, 
would you like to make your statement please?

 STATEMENT OF GERALD H. YAMADA, NATIONAL COORDINATOR, JAPANESE 
              AMERICAN NATIONAL HERITAGE COALITION

    Mr. Yamada. Good afternoon, Mr. Chairman. Thank you for the 
invitation to testify before this subcommittee. I ask for the 
subcommittee's unanimous consent to have my full statement 
entered onto the record.
    Senator Thomas. It will be included.
    Mr. Yamada. I will summarize it.
    My name is Gerald Yamada. I am appearing on behalf of the 
Japanese American Heritage Coalition in support of S. 1719 and 
H.R. 1492. The Heritage Coalition represents 28 national and 
community organizations. S. 1719 and H.R. 1492 embody a 
fundamental principle that is unique to America. This principle 
is that the strength of America lies in its openness to 
recognize our national mistakes.
    In 1942 the U.S. Government made a horrific national 
mistake. This mistake is epitomized in Executive Order 9066, 
signed by President Franklin Delano Roosevelt on February 19, 
1942. This Executive Order was used to forcibly exclude and 
evacuate 120 thousand persons of Japanese ancestry from 
California, Alaska, Hawaii, portions of Arizona, Oregon and 
Washington to government-controlled assembly centers and, 
later, to internment camps and other secured facilities.
    S. 1719 and H.R. 1492 refer to these sites as confinement 
sites. In our bicentennial year of 1976, President Gerald R. 
Ford issued Proclamation 4417 on February 19, 1976 to rescind 
Executive Order 9066. In issuing this presidential 
proclamation, President Ford affirmed the American promise that 
he described with these words. ``We have learned from the 
tragedy that long ago experienced, forever to treasure liberty 
and justice for each individual American and resolve that this 
kind of action shall never again be repeated.''.
    That brings me too why S. 1719 and H.R. 1492 are important. 
The internment experience for the vast majority of Japanese 
Americans took a tremendous toll in human sacrifice and 
hardships on families and individuals during and after World 
War II. Many demonstrated within the confinement sites to 
protest the injustice of their treatment. Yet Japanese 
Americans remain law-abiding citizens and families proudly sent 
more than 25,000 of their sons and daughters to serve in the 
U.S. military during World War II while they remained behind, 
confined against their will and imprisoned without due process. 
These soldiers served with legendary distinction and honor in 
the European and Pacific campaigns. Over 800 of these soldiers 
gave their lives defending America.
    The ordeal suffered by Japanese Americans in confinement 
sites will not have been in vain if their sacrifices and 
hardships can be preserved in ways so that the lessons of the 
past will not be forgotten and can be used to benefit future 
generations. This is the legacy of S. 1719 and H.R. 1492. This 
is the legacy that those who were interned want to leave in 
their twilight years.
    Most Japanese Americans who were evacuated and interned are 
today in their 70s, 80s or older. Their recollections are 
crucial to ensure the accuracy of preservation projects. This 
is the reason why we urge expeditious passage of S. 1719 and 
H.R. 1492. This legislation would make the American promise a 
reality. Racially motivated government actions and policies 
such as those taken under Executive Order 9066 must never be 
repeated. S. 1719 and H.R. 1492 would fund preservation 
projects to provide physical teaching venues to demonstrate 
that this Nation's commitment to the fundamental principles of 
due process and equal protection must not be compromised by 
prejudicial and discriminatory governmental actions.
    They teach that patriotism and citizenship founded in our 
constitutional system of governments and tradition of justice 
will transcend prejudice and discrimination. These lessons 
deserve to be preserved as a part of the American promise made 
to the American public and future generations of Americans.
    S. 1719 and H.R. 1492 accomplish this by creating a 
framework that would give the initiative to committee groups 
and organizations. This framework is carefully created in terms 
of a partnership arrangement with the National Park Service and 
would impose a sense of provision, a sensible patch 
requirement, limited authority to acquire real property and the 
needed level of authorization for appropriation. The Heritage 
Coalition urges that this framework be kept in tact.
    Thank you for giving me the opportunity to present this 
testimony and I would be happy to respond to any of your 
questions.
    [The prepared statement of Mr. Yamada follows:]

Prepared Statement of Gerald H. Yamada, National Coordinator, Japanese 
                  American National Heritage Coalition

    My name is Gerald H. Yamada. I am submitting this statement on 
behalf of the Japanese American National Heritage Coalition (``Heritage 
Coalition'') in support of S. 1719 and H.R. 1492.

                       HERITAGE COALITION MEMBERS

    The Heritage Coalition has 28 organization members. The members are 
the Go For Broke Educational Foundation, Go For Broke National Veterans 
Association, Japanese American Citizens League; Japanese American 
National Museum; Japanese American Veterans Association; National Asian 
Pacific American Bar Association; National Asian Pacific American Legal 
Consortium; National Japanese American Historical Society; National 
Japanese American Memorial Foundation; National Japanese American 
Veterans Council; Organization of Chinese Americans; Amache 
Preservation Society; Committee to Change ``Jap'' Road, TX; Densho: The 
Japanese American Legacy Project, WA; Denver Central Optimists; 
Colorado River Indian Tribes; Friends of California Civil Liberties 
Public Education Program; Gila Reunion Committee; Heart Mountain 
Wyoming Foundation; Japanese American Service Committee, Chicago, IL; 
Japanese American Historical Society, San Diego, CA; Japanese Cultural 
Center of Hawaii; Life Interrupted Program (Arkansas Camps); Nisei 
Farmers League, CA; Poston Restoration Project; Topaz Museum Board, UT; 
and Tule Lake Preservation Committee.
    The Heritage Coalition appreciates this Subcommittee's 
consideration and work in holding this hearing on S. 1719 and H.R. 
1492.

                  IMPORTANCE OF S. 1719 AND H.R. 1492

    S. 1719 and H.R. 1492 are important to the Japanese American 
community and American public because they would provide federal 
partnerships with public and private entities to preserve the historic 
significance of ``confinement sites'' used during World War II to 
imprison Japanese Americans. These ``confinement sites'' are 
individually unique but have one common thread: these sites were the 
results of President Franklin Delano Roosevelt signing Executive Order 
9066 in 1942.
    The federal government used EO 9066 as the authority to forcibly 
exclude and evacuate 120,000 persons of Japanese ancestry from 
California, Alaska, Hawaii, and portions of Arizona, Oregon, and 
Washington to government-controlled assembly centers and later to 
``internment camps'' and other secured locations. S. 1719 and H.R. 1492 
refer to these sites as ``confinement sites.''

                           CONFINEMENT SITES

    There were ten (10) ``internment camps,'' and they are commonly 
referred to as Gila River, Granada (or Amache), Heart Mountain, Jerome, 
Manzanar, Minidoka, Poston, Rohwer, Topaz, and Tule Lake. Their 
locations are depicted respectively in Figures 4.1, 5.1, 6.1, 7.1, 8.4, 
9.2, 10.6, 11.2, 12.2, and 13.2 in Confinement and Ethnicity: An 
Overview of World War II Japanese American Relocation Sites, 
Publications in Anthropology 74 of the Western Archeological and 
Conservation Center, National Park Service (NPS), U.S. Department of 
the Interior (DOI), 1999. In addition to these 10 internment camp 
sites, approximately 42 other confinement sites are identified in 
Confinement and Ethnicity.
    Examples of confinement sites identified in Confinement and 
Ethnicity include:

  <bullet> Gila River Relocation Center, Arizona
  <bullet> Poston Relocation Center, Arizona
  <bullet> Leupp, Arizona--Citizen Isolation Center
  <bullet> Mayer, Arizona--Assembly Center
  <bullet> Tucson, Arizona--Catalina Federal Honor Camp
  <bullet> Granada Relocation Center, Colorado
  <bullet> Honolulu, Hawaii--Sand Island Detention Center
  <bullet> Oahu, Hawaii--Honouliuli Internment Camp
  <bullet> Camp Livingston, Louisiana--Detention Center
  <bullet> Santa Fe, New Mexico--Internment Camp
  <bullet> Fort Stanton, New Mexico--Department of Justice Camp
  <bullet> Portland, Oregon--Assembly Center
  <bullet> Crystal City, Texas--Department of Justice Camp
  <bullet> Camp Forrest, Tennessee--Held Japanese Hawaiians
  <bullet> Heart Mountain Relocation Center, Wyoming

    All the above examples are described in Confinement and Ethnicity 
and are illustrative of sites that are within the definition of 
``confinement sites.''
            wrongfulness of executive order 9066 established
    We need not take the time here to establish that the actions taken 
under the authority of Executive Order 9066 were wrongful. The 
wrongfulness of those actions have already been established.
    In the Bicentennial Year of 1976, President Gerald R. Ford issued 
Proclamation 4417 on February 19, 1976 to terminate Executive Order 
9066. In issuing this Presidential Proclamation, President Ford 
affirmed the ``American Promise'' that he described with these words: 
``[W]e have learned from the tragedy of that long-ago experience 
forever to treasure liberty and justice for each individual American, 
and resolve that this kind of action shall never again be repeated.''
    The 1982 Report of the U.S. Commission on Wartime Relocation and 
Internment of Civilians, created by legislation signed by President 
Jimmy Carter, concluded that ``Executive Order 9066 was not justified 
by military necessity'' and that Executive Order 9066 decisions were 
shaped by ``race prejudice, war hysteria, and a failure of political 
leadership.''
    President Ronald Reagan stated ``Here we admit a wrong. Here we 
affirm our commitment as a nation to equal justice under the law'' when 
he signed the Civil Liberties Act of 1988 into law.
    The Civil Liberties Act provided the federal government's formal 
apology for the imprisonment of Japanese Americans during World War II. 
The Civil Liberties Act showed the strength of our system of 
government. By publicly admitting a wrong, the federal government 
reconfirmed its faith in the principles of democracy and the protection 
of rights provided by our Constitution.

           ``AMERICAN PROMISE''--PRESERVING CONFINEMENT SITES

    The Civil Liberties Act authorized the President to make a formal 
apology and give a redress payment to each Japanese American imprisoned 
during World War II. S. 1719 and H.R. 1492 would go further by 
fulfilling the ``American Promise'' to the American public and future 
generations of Americans.
    S. 1719 and H.R. 1492 would use preservation projects to remind us 
that racially motivated government actions and policies such as those 
taken under Executive 9066 must never be repeated. Preserved 
confinement sites would provide physical teaching venues to demonstrate 
that this Nation's commitment to the fundamental principles of due 
process and equal protection must not be compromised by prejudicial and 
discriminatory governmental actions. They would teach that patriotism 
and citizenship founded in our constitutional system of government and 
tradition of justice will transcend prejudice and discrimination. These 
lessons must be preserved for the American public and for future 
generations of Americans.

                   DISCUSSION OF SPECIFIC PROVISIONS

    Sadly, the internment experience is still unknown to many 
Americans. That is why it is important to enact S. 1719 and H.R. 1492 
into law and keep the carefully crafted framework embodied in these 
bills intact. The Heritage Coalition supports S. 1719, as introduced by 
Senator Daniel K. Inouye, and H.R. 1492, as passed by the US House of 
Representatives. To this end, I want to highlight certain provisions in 
S. 1719 and H.R. 1492 and state the Heritage Coalition's reasons why 
they should be kept intact.

Sunset Provision
    S. 1719 and H.R. 1492 contain a carefully crafted sunset provision. 
The sunset provision is needed to provide time to develop projects 
based on the personal recollections and first hand experiences of those 
who were interned. Their recollections are important to ensure the 
accuracy of these preservation projects. The internment experience for 
the vast majority of Japanese Americans took a tremendous toll in human 
sacrifice and hardships on families and individuals during and after 
World War II. Many demonstrated within the confinement sites to protest 
the injustice of their treatment. Yet, the Japanese Americans remained 
law-abiding citizens, and families proudly sent more than 25,000 of 
their sons and daughters to serve in the US military during World War 
II while they remained behind, confined against their will, and 
imprisoned without due process.
    Those soldiers served with legendary distinction and honor in the 
European and Pacific campaigns. Over 800 of these soldiers gave their 
lives defending America.
    The ordeal suffered by Japanese Americans in confinement sites will 
not have been in vain if their sacrifices and hardships can be 
preserved in ways so that the lessons of the past will not be forgotten 
and can be used to benefit future generations.
    The strength of America lies in its willingness to recognize our 
national mistakes as well as our national achievements. In developing 
projects to preserve the historic significance of the Japanese American 
story during World War II, ample time should be afforded so that the 
story can be developed accurately and in ways deemed important to the 
internees. The sunset provision provides the needed time.
Partnership With the National Park Service,
    S. 1719 and H.R. 1492 do not preempt or impose National Park 
Service unit designations on behalf of any of the confinement sites. 
These bills do not mandate a formula for disbursing funds. Rather, this 
legislation would create a partnership with the National Park Service 
to provide resources to community groups, non-profit organizations, 
local and state governments, and Indian Tribes.
    The Heritage Coalition recognizes that the National Park Service 
may not normally work with or fund sites that are not seeking NPS unit 
status or NPS recognition. However, the National Park Service has a 
working knowledge of this period of history since two internment camp 
sites have been designated as National Park Service units and two 
others have recently received National Historic Landmark recognition. 
The National Park Service's technical assistance would be invaluable in 
capturing the historic significance of the different confinement sites 
or the internment experience.
    Also, the lessons that must be preserved from the internment 
experience are too important to be limited to only some of the sites. 
The whole history must be preserved where the actual events took place. 
The examples listed above demonstrate that confinement sites were 
spread across the United States and that there were different types of 
confinement sites used to carry out Executive Order 9066. Each 
confinement site has its own unique history and relationships within 
and outside of the site. Confinement site committees should have the 
opportunity to preserve a site's history in their own way and in ways 
that the experiences of internees are not forgotten.
    A confinement site committee may want to use funding to restore, 
reconstruct, stabilize, or relocate camp site structures; upgrade site 
infrastructures; build a museum or interpretative center on or off 
site; erect a monument, marker, or signage; sponsor educational 
programs, document oral histories, refurbish an on-site cemetery, etc. 
In other words, S. 1719 and H.R. 1492 would allow a wide range of 
preservation projects to be funded, and the scope of those projects 
would depend upon the initiative of community groups or organizations 
working in partnership with local, state, and Indian Tribes; the 
National Park Service; and other federal agencies.

25% Match
    S. 1719 and H.R. 1492 would require a 25% non-federal match. The 
25% match should not be increased because the internees and sites are 
in a race against time. Most Japanese Americans who were evacuated and 
interned at these confinement sites are today in their 70's, 80's, or 
older. Unfortunately, we are losing too many of them every day. Their 
knowledge and experiences are critical to ensure historic accuracy.
    Also, Confinement and Ethnicity reported that the internment camp 
sites are, in varying degrees, deteriorating and in disrepair and must 
have federal support if their historic significances and lessons are to 
be preserved.
    A non-federal match higher than 25% would take longer to raise 
resulting in delaying the funding and completion of the preservation 
projects. The price for a higher match requirement would be loss of key 
persons and possibly physical structures at confinement sites.

Accountability Controls
    There is no need to add accountability controls to S. 1719 and H.R. 
1492. Existing Federal law and regulations create an accountability 
framework so that additional controls are not needed in this 
legislation.
    Grant applications would be submitted to the Department of Interior 
and evaluated by the National Park Service. Presumably, either DOI or 
NPS would issue grant guidance that would define what would be eligible 
for funding and set priorities for a given fiscal year if available 
funds are limited. The decisions as to which grants to approve and in 
what amount reside in federal officials. These decisions are within the 
judgment of the awarding official but must be made within the authority 
defined in the authorizing legislation and appropriations laws.
    In awarding the grant, there are grant conditions that are a part 
of the grant agreement, which forms a contract with the grantee. There 
are standard grant conditions, which have been issued by the Office of 
Management and Budget. For grants to local and states governments and 
Indian Tribes, the standard conditions are found in OMB Circular No. A-
102. For non-profit organizations, the standard conditions are found in 
OMB Circular No. A-110, 2 CFR Part 215. These circulars set forth pre-
award, post-award, and after-the-award requirements. The post-award 
requirements set forth financial and program management, property, 
procurement, reports and records, and termination and enforcement 
standards. DOI has adopted these circulars by regulation, 43 CFR Part 
12.
    In addition to standard grant conditions, a federal agency can 
impose special or additional grant conditions to meet the needs of the 
project being funded.
    Federal grants are subject to audit. The audit standards for state 
and local governments are found in OMB Circular A-128. The audit 
standards for non-profit organization are found in OMB Circular A-133. 
The DOI Inspector General's Office conducts audits of grants awarded by 
DOI or NPS. Any misappropriation of funds could subject the grantee to 
administrative, civil, and criminal penalties depending upon the 
circumstances. See Inspector General's Act, 5 USC App. 3, Sec. 4, False 
Claims Act, 31 USC Sec. 3729, and False Statements Act, 18 USC 
Sec. 1001.
    The standard grant conditions set forth the procedures that need to 
be followed to close out a grant when the project has been completed.
    There should be no difference between the accountability controls 
imposed on the grants that would be made under this legislation and any 
other grant made by the National Park Service or the federal 
government.

Limited Authority to Acquire Real Property
    The Heritage Coalition has identified four confinement sites that 
would need to acquire real property as a part of their preservation 
projects. In recognition of this need, S. 1719 and H.R. 1492 provide 
very limited authority to authorize federal funds made available under 
this legislation to acquire real property.
    S. 1719 and H.R. 1492 would limit this authority with three 
restrictions. First, the property must be one of the four sites listed 
in the legislation. Second, the current owner must give written consent 
to the acquisition. Third, the use of the authority must be approved by 
the Secretary of Interior in the form of awarding a grant for this 
purpose.

Amount of Authorization for Appropriations
    Finally, S. 1719 and H.R. 1492 would authorize $38 million for 
confinement site preservation projects. This authorization for 
appropriations is small when compared to the tremendous cost that would 
be incurred if the same mistakes are not avoided in the future.
    At the same time, that authorization for appropriations amount is 
not large when compared to preserving the importance of the ``American 
Promise.'' This legislation would show the American public, other 
nations, and other peoples of the world that the United States is 
willing to admit and preserve its wrongs in ways to remind us that they 
must not be repeated.
    The Heritage Coalition asks that the importance of this legislative 
purpose be supported by maintaining the $38 million authorization for 
appropriations now provided in S. 1719 and H.R. 1492.

                               CONCLUSION

    In sum, the Heritage Coalition supports S. 1719 and H.R. 1492 and 
urges this Subcommittee's favorable and expeditious consideration of 
this legislation. Again, the enactment of this legislation would 
preserve the historic lesson that government action founded in 
prejudice and discrimination cannot be justified and is not part of our 
democratic way of governing.
    Thank you for giving me the opportunity to present this testimony. 
If you have questions, I am prepared to respond to them.

    Senator Thomas. Thank you very much and we appreciate your 
contribution.
    I just want to mention that we're very delighted to have a 
group of students from Wyoming here in a close up to 
participate in our hearings here today. Welcome. We're glad to 
have you here.
    I know both of you have special issues, particularly 
Senator Salazar. Would you care to make a comment at this point 
or ask questions.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you Chairman Thomas. I deferred my 
opening statement until this point, so I would like to give 
that opening statement now, please.
    Let me at the outset just thank you, Chairman Thomas and 
Senator Akaka for holding this very important hearing on S. 
1510 and thank you, as well, for being one of our leaders in 
the Levin/Warner CODEL into Iraq and Pakistan and Afghanistan 
and I'm still recovering from that 50,000 mile journey with 
you. So thank you for being back on the job and focusing on the 
issues of our parks today.
    I want to talk briefly about S. 1510, the Rocky Mountain 
National Park Wilderness Area Act. I want to welcome Sue Masica 
from the National Park Service. I also want to thank the Rocky 
Mountain National Park Superintendent Vaughn Baker for his 
leadership on this issue.
    Congress established the Rocky Mountain National Park on 
January 26, 1915 on the vision of a man named Ennis Mills, one 
of our Nation's most committed naturalists whose love for the 
wild Rockies began in 1884 when, at the age of 14, he scaled 
Long's Peak. Mills saw in the high meadows and the alpine 
tundra, the ranches and the roaring waterfalls that span the 
continental divide, our Nation's most prized landscapes, a 
crown jewel deserving the protection as America's 10th national 
park. He said in years to come, when I am asleep beneath the 
pines, thousands of families will find rest and hope in this 
park.
    He was right. Thanks to the excellent work of the Park 
Service and its employees over the past 90 years, the 3.2 
million visitors that come to Rocky Mountain each year 
experience the same wild lands and spectacular vistas that our 
ancestors enjoyed.
    Our job of protecting the wild character of Rocky Mountain 
National Park is not complete, however. In 1964 President 
Richard Nixon recommended that Congress designate 239,835 acres 
within the park as wilderness to ensure the continued 
preservation of the park's values. Though the Park Service has 
managed these lands to preserve these wilderness qualities, 
Congress has yet to act to designate the Rocky Mountain 
National Park wilderness area. Thanks to the tireless efforts 
of local communities and the dedicated protectors of the park, 
we now have a broadly support bill that is deserving of 
passage.
    S. 1510 and its companion in the House, H.R. 3193, add 
249,339 acres, nearly 95 percent of the Rocky Mountain National 
Park to the Wilderness Preservation System. It does so in a way 
that does not affect private land owners, existing development 
or water rights. The boundaries for the wilderness area will 
ensure the continued use of the Grand River ditch and its right 
of way, the Colorado-Big Thompson project and its gauging 
stations, and lands owned by the St. Vrain and Left Hand water 
conservancy district, including the Copeland Reservoir. 
Visitors will still be able to drive the park roads, including 
Trial Ridge Road, which leads to the Continental Divide at 
12,183 feet. And the bill does not affect areas where 
additional facilities and road work will improve park 
management and visitor services.
    Wilderness designation for the park will enhance the park's 
original mission by permanently protecting the values, vistas 
and wildlife that have enthralled visitors for generations. In 
elevating wilderness protections from policy to law we 
eliminate ambiguity for park managers and give them a clear 
direction on how to protect the resource. This added permanency 
to the protections on the park's values ensures that our 
children and grandchildren will be able to enjoy the same wild 
character that we enjoy today when we visit the park.
    Recently the bill sponsor and I have been working with 
local communities to make some additional modifications of the 
bill. I appreciate the assistance and support of the Park 
Service in this effort. I am submitting for the record an 
amendment to S. 1510 that will create a buffer zone around the 
town of Grand Lake for wildfire mitigation. The amendment also 
provides for a bicycle trail along the western edge of the 
park, provided the construction of the trail is consistent with 
the park's mission and makes a small increase in the size of 
the nearby Indian Peaks Wilderness Area.
    As one who feels it is critical that local communities 
participate in and support these efforts, I am proud that this 
bill, with these changes, has the endorsement of local 
communities and organizations including Larimer County, the 
town of Estes Park, Winter Park, the town of Grand Lake, the 
League of Women Voters, and the Headwaters Trail Alliance. The 
people in local communities understand that protection of the 
park's resources is a win-win for economic development and 
conservation. I thank them for their sincere efforts to craft a 
bill that accommodates the needs of all parties as well as 
possible. I look forward to and appreciate the Park Service's 
testimony and cooperation in this effort as we move forward.
    I would also like to briefly recognize Senator Inouye and 
Senator Akaka and their work on S. 1719 on which we will hear 
and have heard testimony today. This bill would protect the 
historic sites where Japanese-Americans were detained during 
World War II, including Camp Amache in southeastern Colorado. 
These internment sites recall a sad moment in American history 
and it is important that we do all we can to preserve them. We 
must never forget the sacrifices of the brave Americans who 
were confined at these sites.
    Thank you Mr. Chairman and Ranking Member Akaka.
    Senator Thomas. You're very welcome. Thank you.
    Senator Akaka, I know you have a bill you're interested in. 
Would you care to make a comment or ask questions?
    Senator Akaka. Yes. Thank you. Thank you very much Mr. 
Chairman. Thank you Senator Salazar for your remarks.
    I would like to ask a few questions of Sue Masica on S. 
1719 and H.R. 1492, the Japanese-American internment sites. 
First of all, I understand that the Park Service generally 
opposes bills authorizing grants regardless of the subject 
area. Aside from that, however, is there any question as to 
whether this is an issue of national significance that merits 
Federal assistance? It would seem to me that the proposal such 
as this, to provide assistance and work cooperatively with 
outside groups who, in turn, will be responsible for the 
preservation and interpretation of these sites is preferable to 
the traditional Park Service role of Federal acquisition and 
management. And my question to you there, also, is do you 
agree?
    Ms. Masica. Senator Akaka, the position that the 
administration has taken on this bill is not driven by the 
significance question. It is the money issue and the overall 
budget situation and what we're dealing with trying to take 
care of the parks and programs that are already authorized, and 
struggling to appropriately manage and take care of in the 
budget environment we're operating within.
    Senator Akaka. Mr. Yamada, I don't really have any 
questions for you. I wonder if you have any response to the 
administration's concern with this proposal and what options 
remain if this legislation is not approved.
    Mr. Yamada. The framework that's contemplated in S. 1719 as 
well as H.R. 1492 is a--perhaps a different way of doing 
business for the National Park Service. As I understand the 
National Park Service, they focus primarily on sites that are 
seeking National Park Service unit designation or some form of 
formal recognition, such as landmark status. And we believe 
that the expertise, the technical assistance that's available 
through the Park Service is very important to developing these 
sites. So what we're asking of the Park Service is to create a 
different way of doing business with the public and in dealing 
with the potentially historic sites.
    The initiative contemplated by the statute is really driven 
by grassroots committees. It's driven by committees that are 
composed in part by internees. And it's important that they--
that they participate in defining the historical significance 
of the confinement sites. We don't see that to be the role of 
the Federal Government. This story should not be told by the 
Federal Government. It should be told by the people that were 
interned in the camps.
    If this legislation fails, the sad part about it is the 
vast majority of internees--I mean, we've lost many today, 
we're losing some every day, and we're at a critical stage, 
both from the standpoint of a race against time in terms of the 
age of the internees and the, I think, 1990 report that was 
done by the National Park Service says many of these sites are 
already in general disrepair. So without this legislation, I'm 
afraid that we will just lose this period of history.
    Senator Akaka. I am very concerned about that question. In 
case it's not passed, what will happen, what options do you 
have after that? As you pointed out, and as we know, it has 
been many years since this has taken place and we're trying to 
be certain that America and the people of the United States 
know that history and can even visit those places. And we look 
forward to support on this bill. As we all know, Senator Inouye 
has certainly been a huge part of this. I would tell you that 
Congressman Bill Thomas has been speaking with us about this 
and so there is this kind of support for H.R. 1492 and S. 1719.
    So I thank you very much for being here and I also want to 
thank Sue Masica for her statement as well. Thank you Mr. 
Chairman.
    Senator Thomas. Thank you Senator. We have a Hart Mountain 
area in Wyoming that's also involved in this, as you may know.
    Couple of questions about the Rocky Mountain Park 
Wilderness. Is there an interim management policy restricting 
the use of the Park Service lands which are recommended as 
unsuitable for wilderness designation? Will this change that?
    Ms. Masica. No sir. If they're determined to be unsuitable, 
they're not managed as wilderness, so this doesn't change that.
    Senator Thomas. Okay. That's good.
    Mr. Yamada, in these interim sites, the legislation 
authorizes $38 million to be used at the sites as a grant 
program. On what basis would these grants be awarded? Who has 
the authority for selecting the projects for funding and what 
are the priorities for funding?
    Mr. Yamada. Well the grants would be awarded by the 
National Park Service. There are potentially 52 sites that are 
eligible in terms of----
    Senator Thomas. 50?
    Mr. Yamada. 52.
    Senator Thomas. 52.
    Mr. Yamada. Yes. There are 52 confinement sites that are 
identified in the National Park Service unit. We don't 
contemplate all 52 being eligible or interested in applying for 
grants. As I mentioned earlier, the grants and the projects 
themselves would be driven by community groups wanting to 
preserve a particular area or a particular site.
    Let's just take ten internment camps, which are the most 
well known. Each of the internment camps, I believe, are 
unique. Each camp has a different story to tell. And if you 
look at the layouts, I think, they probably look very, very 
similar because common blueprints were used to build the 
barracks and the mess hall and showers and that type of thing. 
But in terms of the stories that developed at each of the 
sites, each was different. And if you look at the assembly 
centers, the Department of Justice camps and some of the other 
secured areas, each of those has----
    Senator Thomas. I guess my question really is what role, 
for example, does the Heritage Coalition have in the grant? 
Does the Department make these judgments as to where this 
money's spent, or, in other words, out of the $38 million, who 
specifically allocates the dollars?
    Mr. Yamada. The Secretary of the Interior.
    Senator Thomas. The Interior Department?
    Mr. Yamada. The Interior Department. That may be allocated 
to the National Park Service, but the ultimate decisions in 
terms of who gets the money and what projects will be funded, 
the statutes contemplate that the National Park Service would 
make those decisions.
    What we ask for is some daylight, some sunshine in the 
grant process so that there would be a consultation process 
with the community in terms of what we ask--what we're being 
awarded.
    Senator Thomas. Okay.
    Mr. Yamada. We would hope that there would be some 
communication and consultation in terms of the priorities that 
the National Park Service sets. But, again, the ultimate 
decision as to who gets the awards would be the National Park 
Service.
    Senator Thomas. All right. Thank you. I appreciate that. I 
grew up in Cody, Wyoming, so I'm pretty familiar with the Hart 
Mountain site and have been there a number of times and share 
with you the enthusiasm for maintaining that historic activity 
there.
    Ms. Masica, the Lewis and Clark Visitor's Center 
appropriation authorizes $150 thousand per year, not to exceed 
10 years. How much is the park currently spending on these 
sites? Do you know?
    Ms. Masica. Senator, we spend about $200 thousand a year in 
mostly operational support. About 25 percent of that is 
associated with some of the facility's upkeep. It's a 
relatively new facility, so that's a modest amount at this 
point in time.
    Senator Thomas. So you contemplate some saving for the Park 
Service and does this----
    Ms. Masica. We would. We wouldn't have the maintenance 
responsibility and the operational contribution under the terms 
of the legislation would be set at $150 thousand a year. If we 
had full operational responsibility it would be even more than 
that. So we do believe it would be cost-effective.
    Senator Thomas. A cost-saving bill, ooh.
    Barrett Farm, this site is a critical part of the story 
before. Why wasn't it included in the original boundary of the 
Minuteman National Historic Park?
    Ms. Masica. When the park was established in 1959 the 
property was in private ownership and was not available for 
acquisition. But it is, we believe, a critical part of the 
story and there now is a possibility that it could become 
available.
    Senator Thomas. Okay. I see. Well, obviously I don't need 
to express my support for the Jackson Wildlife Art Museum. I 
think that is one of the outstanding places in the country and 
I'm delighted----
    Ms. Masica. It's a great facility, I've been there Mr. 
Chairman.
    Senator Thomas. And, also, the exchange in Teton Park. As 
some of you may understand, this area of the park was acquired 
after the original park area by the Rockefeller Foundation, 
basically, and there were in-holdings and gradually these in-
holdings are being turned back over or purchased again by the 
parks. By the way, we're interested in working on that section 
that belongs to the State, making some trade with the Federal 
Government on that. So it could become part of the park again 
as well.
    The bill directs the Secretary not to transfer the parcel 
to any third parties in the future. Has this type of 
requirement been included in the transfers in any other parks 
or is this and will this provision protect the land in the 
future?
    Ms. Masica. Mr. Chairman, we checked and we can find no 
record of a similar provision in other legislation for other 
park units. But because of the language that would preclude the 
Secretary from disposing of any of that land, it would keep it 
in Federal ownership so the likelihood of future development is 
significantly diminished.
    Senator Thomas. I see. Well, that's great.
    We met this morning--yesterday, I guess, with the Director 
of the Teton Park in working on the transportation plan there 
and so on. The gentleman who's transferring this land was going 
to be here, but I don't believe he made it today. Sorry.
    Well thank you both for being here. I think these are 
important bills and we needed to have a hearing and we 
appreciate your being here and we'll move them forward. If any 
of the other members have questions, we'll have them submit 
them to you over the next day or so. So if not, thank you very 
much.
    Mr. Yamada. Thank you Mr. Chairman.
    Senator Thomas. The committee is adjourned.
    [Whereupon, at 3:21 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Gerald Yamada to Questions From Senator Thomas

    Question 1. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): The bill states that the Secretary of the Interior would award 
grants in Consultation with the Japanese American National Heritage 
Coalition.
    a. How is the Japanese American National Heritage Coalition 
structured?
    b. Who belongs to it, how are the members selected, and how 
frequently do they meet?
    c. Mr. Yamada, I see from your title that you are the National 
Coordinator of the Japanese American National Heritage Coalition. How 
is the National Coordinator selected and how long a term does the 
National Coordinator serve?
    Answer. S. 1719 and H.R. 1492 provide that the Secretary of the 
Interior, ``in consultation with the Japanese American National 
Heritage Coalition, shall make grants. . . .'' At the close of the 
hearing, the Chairman mentioned that he found the ``shall make grants'' 
language to be different from other grant authorities given to the 
National Park Service (``NPS''). The Chairman noted that the language 
for such authority generally provides that NPS ``may make grants.'' 
Before responding to the Subcommittee's questions, I want to address 
why the ``shall make grants'' language must be kept even if it is 
different from other NPS authorities.
    Because NPS units and non-NPS units would be eligible for funding 
under this legislation, the ``shall'' language is used to keep a level 
playing field among all eligible confinement sites. As signaled by its 
opposition to this legislation, NPS has shown a preference for NPS 
units. The ``may make grants'' language could be interpreted to allow 
NPS to fund only NPS units or to use the funds for purposes that are 
not intended by this legislation such as paying for on-going operations 
at NPS units.
    The language ``in consultation with the Japanese American National 
Heritage Coalition'' language is a compromise made with NPS on the 
House bill. Congressman William Thomas originally introduced this 
legislation as H.R. 360, which would have created a federal advisory 
commission composed of 21 members. NPS objected to the creation of this 
federal advisory committee.
    The Heritage Coalition's position is that the internees have earned 
the right and the Japanese American community should be given the 
opportunity to shape how the Japanese American internment experience is 
preserved. We are asking for an open process and are not wedded to a 
certain form of participation such as a federal advisory committee.
    As one of the concessions made to NPS, Congressman Thomas deleted 
the Advisory Commission to Preserve World War II Historic Confinement 
Sites and reintroduced his legislation as H.R. 1492 with the ``in 
consultation with the Japanese American National Heritage Coalition'' 
language included. This language was suggested by the House 
subcommittee as a compromise.
    One reason why the Heritage Coalition would be given this 
consultation role is that it would not be a potential grant applicant. 
By contrast, each of the member organizations would be eligible to 
submit a grant application.
    The Heritage Coalition believes that it is important to have an 
open process in implementing S. 1719 and H.R. 1492. The need for this 
openness is demonstrated by the recent closing of the More Perfect 
Union Exhibit within the Smithsonian Institution's Museum of American 
History. The Congress provided appropriated funds to the Museum of 
American History to create a permanent exhibit on the Japanese American 
internment experience in World War II. The exhibit was called the More 
Perfect Union. In 2005, the Museum of American History unilaterally 
and, without any apparent consultation with anyone in the Japanese 
American community, closed the exhibit. Members of the Japanese 
American community were not informed until after the exhibit was taken 
down and artifacts returned to lenders so the exhibit could not be 
reassembled. It is this type of unilateral decision making that the 
consultation language in S. 1719 and H.R. 1492 hopes to avoid.
    The Heritage Coalition has 28 organization members. The members are 
the Go For Broke Educational Foundation, Go For Broke National Veterans 
Association, Japanese American Citizens League; Japanese American 
National Museum; Japanese American Veterans Association; National Asian 
Pacific American Bar Association; National Asian Pacific American Legal 
Consortium; National Japanese American Historical Society; National 
Japanese American Memorial Foundation; National Japanese American 
Veterans Council; Organization of Chinese Americans; Amache 
Preservation Society; Committee to Change ``Jap'' Road, TX; Densho: The 
Japanese American Legacy Project, WA; Denver Central Optimists; 
Colorado River Indian Tribes; Friends of California Civil Liberties 
Public Education Program; Gila Reunion Committee; Heart Mountain 
Wyoming Foundation; Japanese American Service Committee, Chicago, IL; 
Japanese American Historical Society, San Diego, CA; Japanese Cultural 
Center of Hawai'i; Life Interrupted Program (Arkansas Camps); Nisei 
Farmers League, CA; Poston Restoration Project; Topaz Museum Board, UT; 
and Tule Lake Preservation Committee.
    To join the Heritage Coalition, organizations adopted the attached 
resolution * or its equivalent. A member organization can withdraw at 
any time. To date, no member organization has withdrawn from the 
Heritage Coalition. No organization that has adopted the resolution to 
join the Heritage Coalition has been denied participation.
---------------------------------------------------------------------------
    * The resolution and a letter to Congressman Thomas have been 
retained in subcommittee files.
---------------------------------------------------------------------------
    I communicate with all Heritage Coalition member contact persons 
regularly by sending them monthly updates by email to keep them 
informed on the progress of our legislative efforts and to ask for 
their comments on any submissions to Congress such as my testimony 
before the Senate National Parks Subcommittee and this letter.
    I organized the Heritage Coalition and have been coordinating our 
efforts in support of S. 1719 and H.R. 1492. I volunteered to serve as 
the Heritage Coalition's National Coordinator on a pro bono basis for 
two reasons. First, I have a strong interest in seeing S. 1719 and H.R. 
1492 enacted and properly implemented since I was born at the Jerome 
War Relocation Authority Center.
    Second, my career experiences with the federal government qualifies 
me to carry out the needed duties for this position. Early in my 
federal career as the Assistant General Counsel for Grants with the 
U.S. Environmental Protection Agency, I provided legal services to 
EPA's 30-plus grant programs including the annual multi-billion dollar 
wastewater construction grant program and the then newly enacted 
Superfund trust fund. As EPA's Associate General Counsel for Grants, 
Contracts, and General Law, I provided legal services for EPA contracts 
and general law matters such as Federal Advisory Committee management 
and public participation in regulatory development matters. As EPA's 
Principal Deputy General Counsel for 13 years, I provided legal 
services for statutory interpretation, appropriations, and program 
management matters. Throughout my career, I have been substantially 
involved in numerous legislative initiatives.
    Question 2. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): Who on the Japanese American National Heritage Coalition would 
be responsible for making grant recommendations?
    Answer. S. 1719 and H.R. 1492 envision a ``consultation'' role for 
the Heritage Coalition. Consultation would cast the Heritage Coalition 
in the role of facilitating the opportunity for member organizations to 
review and comment on the implementation of the legislation. The 
Heritage Coalition would not filter out comments submitted by member 
organizations.
    The consultation role would need to be further refined in 
discussions with NPS after the legislation is enacted. At a minimum, I 
would expect that NPS would look to the Heritage Coalition to 
facilitate the opportunity for member organizations to review and 
comment on NPS' implementation of this legislation in terms of program 
guidance and funding levels and on grant applications.
    Question 3. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): The legislation authorizes $38 million for use at former 
Japanese American Internment sites through a grant program. On what 
basis would these grants be awarded, who would have authority for 
selecting projects for funding, and what are some of the highest 
priority items for funding?
    Answer. The challenge is how to best preserve the whole Japanese 
American experience during World War II as a comprehensive story. 
Although NPS two internment camp sites are NPS units and two others 
have been recently recognized as National Historic Landmark sites, each 
of internment camp sites have an unique story to tell. Furthermore, 
there are other confinement sites other than internment camp sites that 
have historically significant parts in this story.
    To meet this challenge, grants should be awarded based on the 
initiative and creativity of the applicant, how the project would fit 
into a comprehensive preservation of this period of history, and the 
historic significance of the confinement site. The Secretary of the 
Interior would be the authorized government official who would make the 
final decision on which grants to fund.
    In our letter of July 30, 2004 to Congressman Thomas, the Heritage 
Coalition outlines projects that were submitted by Internment Camp 
committees. A copy of this letter and budget estimates are attached 
describing the types of grant projects that could be funded under S. 
1719 and H.R. 1492. It is important to note that these projects are not 
all-inclusive and that these projects and estimates may have changed 
since July 2004 or may change in the future. Furthermore, our letter to 
Congressman Thomas included descriptions of only a very limited number 
of projects at confinement sites that are not one of the 10 Internment 
Camp sites.
    Question 4. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): Other than the Japanese American National Heritage Coalition, 
are you aware of any organizations that should have a role in reviewing 
grant applications and making recommendations?
    Answer. The Heritage Coalition consists of 28 member organizations. 
Consultation between the NPS and the Heritage Coalition would include 
the opportunity for participation by all of the Heritage Coalition's 
member organizations.
    The Heritage Coalition represents only its member organizations. If 
NPS wants also to consult with other organizations or persons or 
directly with Heritage Coalition member organizations, S. 1719 and H.R. 
1492 would not preclude NPS from doing so.
                                 ______
                                 
      Responses of Fran Mainella to Questions From Senator Thomas

    Question 1. (S. 1510, Rocky Mountain Wilderness): How would 
wilderness designation change the current management of the lands 
identified in this bill?
    Answer. In 1964, Congress designated Rocky Mountain National Park 
as a wilderness study area. In 1974, President Nixon recommended to 
Congress 239,835 acres for immediate designation and 5,169 acres for 
potential designation as wilderness in the park.
    In accordance with NPS policy, all parklands that have been 
formally recommended for wilderness are managed to preserve wilderness 
resources and character until the legislative process of wilderness 
designation has been completed.
    Present road, water, and utility corridors, and all developed 
areas, are excluded from recommended wilderness. Wilderness designation 
would not alter any current visitor activities or access within Rocky 
Mountain National Park and would allow visitors to utilize the park in 
the same ways and locations that they presently enjoy.
    Question 2. (S. 1510, Rocky Mountain Wilderness): Will S. 1510 
affect private property rights in or outside of the park?
    Answer. No. All private lands and interests have been excluded from 
the proposed wilderness boundaries.
    Question 3. (S. 1510, Rocky Mountain Wilderness): How would the 
wilderness designation affect water rights?
    Answer. Federal reserved water rights for park purposes are not an 
issue related to wilderness designation. Water rights for the park have 
been adjudicated through the State of Colorado water courts. 
Consequently, no water rights claims for wilderness purposes are needed 
or desired by the NPS.
    Question 4. (S. 1510, Rocky Mountain Wilderness): The Wilderness 
Act of 1964 requires the Park Service to study their lands to determine 
[they are suitable for wilderness. As of December 31, 2004, the Park 
Service is protecting approximately 26 million acres, 2 million of 
which are in Wyoming, as wilderness while it waits for action from the 
Department of Interior or Congress on Park Service recommendations. Is 
this interim management policy restricting use of Park Service lands 
which are recommended as unsuitable for wilderness designation?
    Answer. Those lands that were determined to be unsuitable for 
wilderness designation have been managed in the same fashion as other 
non-wilderness lands in a particular park. At Rocky Mountain National 
Park for example, over the last five years on lands that were not 
recommended for wilderness designation, the park has made significant 
improvements in frontcountry visitor facilities and access to the 
park's backcountry. Examples include reconstruction of the Bear Lake 
Road (parking, trailheads), renovation/restoration of the former Hidden 
Valley ski area (snow play area, access point for backcountry skiing, 
snowshoeing), and relocation of the Twin Owls trailhead (access to 
popular hiking/climbing areas).
    Question 5. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): The legislation authorizes $38 million for use at former 
Japanese American Internment sites through a grant program. On what 
basis would these grants be awarded, who would have authority for 
selecting projects for funding, and what are some of the highest 
priority items for funding?
    Answer. Since NPS would be setting up a new program to administer 
these grants, we cannot say at this point what the basis would be for 
warding the grants. It seems likely that the grants would be awarded in 
a similar manner to other grant programs, such as Save America's 
Treasures, where organizations are invited to submit applications for 
projects that are then evaluated on the basis of a scoring system 
developed by NPS. Both bills require consultation with the Japanese 
American National Heritage Coalition in making the grants, so that 
consultation would be part of the process as well. The bills give 
authority to the Secretary of the Interior for making the grants, so 
the decision about which projects are funded would rest with the 
Secretary or with whomever the Secretary delegates that authority. As 
for projects that would be the highest priority for funding, that, too, 
would depend on decisions that would be made as the program is 
established.
    Question 6. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): What is the role of Japanese American National Heritage 
Coalition in the grant program? Would they be an advisory or decision-
making body?
    Answer. The legislation specifies that the Secretary shall makes 
grants ``in consultation with the Japanese American National Heritage 
Coalition,'' so the organization would be consulted in the decisions 
about recipients of the grants. The coalition would be an advisory 
body, not a decision-making body.
    Question 7. (S. 1719 and H.R. 1492, Japanese American Internment 
Sites): Other than the Japanese American National Heritage Coalition, 
are you aware of any organizations that should have a role in reviewing 
grant applications and making recommendations?
    Answer. It is unusual to give any private organization a role in 
reviewing and making recommendations about grants in a grant-making 
program administered by the NPS.
    Question 8. (S. 1957, Lewis and Clark National Historic Trail 
Visitor Center): I see this bill will authorize appropriations of 
$150,000 per year for a period not to exceed 10 years.
    a. How much is the National Park Service currently spending to 
operate the center and is this a cost effective solution?
    Answer. The Midwest Region currently subsidizes the Center for 
about $200,000 per year. This helps pay salaries, utilities, routine 
maintenance, and other needed expenses. This is not an effective 
solution to the operation and management of the Center. By owning the 
Center, the Missouri River Basin Lewis and Clark Interpretative Trail 
and Visitor Center Foundation, Inc. could collect entrance and special 
use fees to supplement donations for operations and maintenance.
    Question 8b. Will this management transfer save the NPS money in 
the long run?
    Answer. Yes. The conveyance of these parcels would result in a 
savings to the NPS and allow future funds to be used to assist with 
other trail partnerships and perhaps contingency issues in other 
national park units of the Midwest Region.
    Question 8c. If so, how much savings do you estimate?
    Answer. We currently subsidize the Center at about $200,000 per 
year, however, the total projected annual operating cost per year to 
operate the Center is about $547,000. At an annual subsidy of $150,000 
a year provided under the bill, the savings would be approximately 
$50,000 a year or $500,000 for the 10-year period.
    Question 9. (S. 2034 and H.R. 394, Colonel James Barrett Farm 
Study): The arms hidden at Colonel James Barrett's farm sparked the 
Battle of Lexington and Concord, the first battle of the American 
Revolutionary War. If this site is such a critical part of the story of 
Lexington and Concord, why was it not included in the original boundary 
for Minuteman National Historic Park?
    Answer. The farm was considered for inclusion when Minute Man 
National Historical Park was established in 1959, but at that time, the 
farm was in private ownership and unavailable for acquisition. It 
already has been found to be nationally significant and it is a key 
resource of the story of the beginning of the Revolutionary War.
    Question 10. (S. 2252, Jackson Wildlife Art Museum): Are any other 
major museums in the United States dedicated exclusively to wildlife 
art? How do the collections of wildlife art at the Museum compare with 
other collections in the United States?
    Answer. The NPS does not keep records on private museums throughout 
the United States. We are aware of some other museums that focus on 
wildlife are such as the Ward Museum of Wildfowl Art, in Salisbury, 
Maryland, which states on its website that it is home to the premier 
collection of wildfowl art, including decoy carving, and the Leigh 
Yawkey Woodson Art Museum in Wausau, Wisconsin, which each year hosts a 
juried ``Birds in Art'' Exhibition that has been in existence for more 
than 30 years. We do not have an ability to compare collections of 
private museums through the United States.
    Question 11. S. 2403, Grand Teton): The Grand Teton National Park 
Act of 1950 provides that no further extension or establishment of 
national parks or monuments in Wyoming may be undertaken except by 
express authorization of the Congress.
    a. Has development around Grand Teton National Park impacted the 
park? If so, what is the greatest type of impact and what is the best 
solution?
    Answer. Impacts from development occur both on private lands 
adjacent to the park, and on inholdings within the park. Currently, 
there are over 130 tracts of non-federal land within the park, most of 
which are in private ownership. These properties may be developed in 
accordance with the Teton County Land Development Regulations, and the 
NPS does not have regulatory authority over the development. 
Development of these lands could have significant impacts on the scenic 
views for which the park is renowned, on visitor enjoyment, and on 
wildlife. Acquisition of inholdings from willing sellers, or protecting 
them through the use of conservation easements, is a high priority for 
the park, but is dependent on the availability of land acquisition 
funds, or the generosity of donors.
    Question 11b. This bill directs the Secretary not to transfer the 
parcel to any third parties in the future without the express 
authorization from Congress. Has this type of requirement been included 
for land transfers at any other park units? If so, where? Would this 
provision help protect the land from future development?
    Answer. The NPS can find no record of a similar provision in 
legislation for any other park units. Because this provision ensures 
that, without Congressional authorization, the land will remain in 
federal ownership, the likelihood of future development is diminished.

      Responses of Fran Mainella to Questions From Senator Salazar

    Question 1. Will the passage of S. 1510 in any way detract from the 
National Park Service's ability to protect the resources of the Park?
    Answer. No. In 1964 Congress designated Rocky Mountain National 
Park as a wilderness study area. In 1974 President Nixon recommended to 
Congress 239,835 acres for immediate designation and 5,169 acres for 
potential designation as wilderness in the park.
    In accordance with NPS policy, all lands within Rocky Mountain 
National Park that have been formally recommended for wilderness are 
being managed to preserve wilderness resources and character until the 
legislative process of wilderness designation has been completed. 
Passage of S. 1510 will not alter the way the park is currently being 
managed, and will enhance the NPS's ability to protect park resources 
by defining the wilderness boundaries and affording the legal 
protections of the Wilderness Act.
    Question 2. Will the passage of S. 1510 limit the ability of the 
Park Service to maintain and improve its existing visitor facilities, 
including roads?
    Answer. No. Present road, water, and utility corridors, and all 
developed areas, are excluded from recommended wilderness. Wilderness 
designation would not alter any current visitor activities or access 
within Rocky Mountain National Park, and would allow visitors to 
utilize the park in the same ways and locations that they presently 
enjoy. S. 1510 would not limit the ability of the National Park Service 
to maintain or improve existing visitor facilities, including roads.
    Question 3. Will the passage of S. 1510 in any way limit access to, 
or maintenance of, existing water resource facilities in the Park?
    Answer. No. Water resource facilities in the park include the Grand 
River Ditch, the Harbison Ditch, Specimen Ditch, Lily Lake, Copeland 
Lake, and the Alva B. Adams Tunnel. The East Portal and the West Portal 
of the Alva B. Adams Tunnel are located outside the park. All the other 
aforementioned facilities have been excluded from the recommended 
wilderness boundaries.
    Question 4. Can I have your assurance that, if S. 1510 passes with 
the amendment that I have submitted for the record, the National Park 
Service will work quickly and closely with local communities and 
interested parties in the process of authorizing construction of the 
East Shore Bike Trail?
    Answer. Yes. If S. 1510 were enacted, the NPS would work quickly 
and closely with local communities to initiate the planning process for 
the bike trail. As a federal agency, the NPS must comply with the 
National Environmental Policy Act (NEPA) before authorizing a non-
motorized bike trail. Congress passed NEPA in 1969 to allow, among 
other things, public input into the decision making for the use of 
public resources. Two of the major tenets of NEPA are its emphasis on a 
full and open evaluation of environmental costs and benefits before 
actions are taken that may impact the environment, and the development 
and critical evaluation of alternative courses of action, including the 
``No Action'' alternative. Section 102 of NEPA requires a statement of 
possible environmental effects to be released to the public and other 
agencies for review and comment. A decision on the bike trail will be 
made after analysis of the environmental effects and consideration of 
public input.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                       Grand County Board of Commissioners,
                           Hot Sulphur Springs, CO, August 2, 2005.
Hon. Mark Udall,
Cannon House Office Building, Washington, DC.
Hon. Ken Salazar,
Hart Senate Office Building, Washington, DC.
    Dear Congressman Udall and Senator Salazar: Please accept this 
letter as support for the designation for Rocky Mountain National Park 
(RMNP) for a wilderness area subject to the following conditions:

          1. The buffer areas set forth from the Town of Grand Lake's 
        letter to Congressman Udall dated June 29, 2005, and attached 
        hereto as Exhibit A, should be applied
          2. RMNP should designate areas for future expansion of 
        parking, as visitor numbers will only increase and parking is 
        essential for a quality visit.
          3. Snowmobiling on the routes currently designated in the 
        Park should be maintained.
          4. If the Grand Ditch were to breach in the future, repairs 
        should be allowed as well as sedimentation issues caused by 
        this sort of action need to be immediately addressed.

    Again, Grand County supports the designation of RMNP as a 
wilderness area if the above restrictions can be applied.
            Sincerely,
                                   James L. Newberry,
                                           Chairman.
                                   Nancy Stuart,
                                           Commissioner.
                                   Duane E. Dailey,
                                           Commissioner.
                                 ______
                                 
                                        Town of Grand Lake,
                                     Grand Lake, CO, June 29, 2005.
Hon. Mark Udall,
Congressman, Minturn, CO.
    Dear Congressman Udall: The Town of Grand Lake held a Public 
Hearing on the proposed Wilderness Designation for Rocky Mountain 
National Park on June 13, 2005 to gather public comment. At the 
meeting, a clear majority of the citizens in attendance were in favor 
of such designation in order to preserve and manage the Park as 
wilderness.
    The Board of Trustees voted unanimously in favor of such 
designation for the Park with the following requests:

          1. A one-fourth to one-half mile buffer be excluded from the 
        designation around the border of Grand Lake. The buffer is 
        requested for fire mitigation and future development 
        possibilities that are unknown at this time with the private 
        property that borders the Park.
          2. A one-eighth mile buffer, including the East Shore Trail 
        and the Range Meadows Trail be excluded from the designation 
        along the east shore of Shadow Mountain Lake and Lake Granby 
        extending from the northern boundary of the Park near Grand 
        Lake to the southern boundary of the Park for the Granby to 
        Grand Lake trail.
          Headwaters Trails Alliance (HTA) has identified this section 
        of the Park (East Shore Trail) as part of the future Granby to 
        Grand Laker non-motorized trail. HTA's mission is to connect 
        each Town in Grand County with non-motorized trails. Currently 
        HTA has completed the Winter Park to Fraser and the Fraser to 
        Granby trails. A planning grant has been awarded to HTA to plan 
        the Granby to Grand Lake trail and initial analysis of possible 
        routes indicates that the East Shore Trail, which lies mostly 
        on National Park Service property, is the ideal candidate for 
        the upper section of the Granby-to-Grand Lake Trail.

    Thank you for allowing the community of Grand Lake to comment on 
the Wilderness Designation for Rocky Mountain National Park.
            Sincerely,
                                             Judy M. Burke,
                                                             Mayor.
                                 ______
                                 
              International Mountain Bicycling Association,
                                       Boulder, CO, March 30, 2006.
Senator Craig Thomas, Chair,
Senator Daniel Akaka, Ranking Member,
Senate Energy and Natural Resources, Subcommittee on National Parks, 
        Dirksen Senate Office Building, Washington, DC.
    Dear Chairman Thomas and Ranking Member Akaka: On behalf of the 
International Mountain Bicycling Association (IMBA) and our member 
Colorado bicycle clubs, I thank you for the opportunity to submit 
testimony in support of S. 1510, the Rocky Mountain National Park 
Wilderness Act.
    IMBA was founded in 1988 and leads the national and worldwide 
mountain bicycling communities through a network of 32,000 individual 
members and more than 550 affiliated clubs. More than 39 million 
Americans participated in singletrack bicycling and 7.6 million were 
``enthusiasts'' of the sport in 2004, according to the Outdoor Industry 
Association.
    IMBA teaches sustainable trailbuilding techniques and has become a 
leader in trail design, construction, and maintenance. We promote 
responsible riding, volunteer trailwork and cooperation among trail 
user groups and land managers. IMBA members and affiliated clubs 
perform close to one million hours of volunteer trailwork and advocacy 
annually, and are outstanding partners for federal, state and local 
land managers.
    IMBA has formal partnership agreements with the USDA Forest 
Service, Bureau of Land Management and US Army Corps of Engineers. Just 
last year, we signed an official agreement with the National Park 
Service (NPS) to develop more mountain biking opportunities at NPS 
units across the country. Currently more than 40 national parks have 
mountain biking on dirt roads and trails.
    In Colorado, IMBA has approximately 10,000 supporters through our 
2,500 individual members and 50 affiliated bike clubs. More than 30 
bicycle retailers are also affiliated with IMBA. Colorado is a hub of 
the bicycle industry, with leaders such as Pearl Izumi, Catalyst 
Communications, Yeti Bicycles, Moots Bicycles, Bicycle Village, 
Criterion Cycles, Koobi Saddles, SRAM/Rock Shox, USA Cycling, Colorado 
Cyclist, Peak Bar, Carmichael Training Systems, Velo News, and many 
others residing in the state.
    Bicycling is a billion-dollar industry in the state, according to 
the Colorado Department of Transportation. Thousands of tourists travel 
to Colorado each year to ride their mountain bikes and experience 
trails that have become world famous. Tourists flock to Durango, 
Crested Butte, Telluride, Steamboat Springs, Fruita, Grand Junction and 
many other Colorado communities to explore the outdoors by bicycle. 
Colorado tourism communities take trail access very seriously as they 
know that cyclists spend money on lodging, gas, restaurants, and in 
local stores. In 2004, Colorado ranked sixth in the nation for 
singletrack bicycling participants, with 22 percent of the population--
730,940 people--involved in the sport (Outdoor Industry Association).
    As you know, federal agency interpretation of the 1964 Wilderness 
Act bans bicycle access. Every time a congressional Wilderness bill is 
proposed, cyclists risk losing access to trails they have ridden for 
years. Further, they lose the potential to build new trails or expand 
bicycling access in these lands in perpetuity. IMBA members take 
Wilderness bills very seriously and want to be at the table to help 
craft land protection legislation. For this reason, bicyclists seek 
modifications of Wilderness proposals that will protect the land while 
continuing to allow this quiet, low-impact, muscle-powered recreation 
on existing trails. When conflict exists, IMBA suggests boundary 
adjustments, non-Wilderness trail corridors, grandfathering in our 
existing use, or other land protections such as National Protection 
Areas or National Conservation areas.
    Senator Salazar has been very inclusive of IMBA and mountain 
bicyclists in the discussions of the proposed Wilderness boundaries as 
has Congressman Udall in the House. We are pleased to see the bill 
includes a boundary that allows for the possible inclusion of bicycles 
on the East Shore Trail. This trail will provide a critical connector 
for the Headwaters Trail Alliance (HTA) in their master trails plan to 
connect Grand County with 70 miles of shared-use, non-motorized trails. 
The Granby to Grand Lake trail is the next leg of their master plan and 
the best alignment is on the western edge of Rocky Mountain National 
Park and provide spectacular views of Grand Lake, Shadow Mountain 
Reservoir, and Lake Granby. This trail will be a beautiful community 
amenity allowing non-motorized trail users to travel near the shore. We 
are confident that the East Shore Trail will be a draw for trails-based 
tourism and give families, community members and tourists a resource 
that will be highly valued for many years to come.
    There are 359 miles of dirt trails open to hikers in the National 
Park but only paved roads open to cyclists. These paved roads have very 
narrow shoulders and park officials encourage cycling early in the 
morning to avoid conflict with vehicles. IMBA encourages the committee 
to do more to get visitors out of their cars and experience the park by 
bicycle. The 16-20 mile East Shore Trail would do just that and only 
remove about 500 acres of land from the approximately 250,000 acre 
proposal.
    In 1974, the National Park Service determined many of these areas 
to be appropriate for Wilderness and classified them as Wilderness 
Study Areas (WSA). NPS management will not allow the consideration of 
bicycles in these areas until Congress acts to decide the fate of these 
lands. Enacting S. 1510 would allow the community and the federal land 
agencies to begin the environmental process to consider opening the 
East Shore Trail to bicycles. We look forward to working with the 
National Park Service and the USDA Forest Service on starting this 
process.
    Thank you for the opportunity to submit comments on this important 
legislation. IMBA looks forward to working with the committee and 
Senator Salazar and urges your favorable consideration.
            Sincerely,
                                                 Jenn Dice,
                                  IMBA Government Affairs Director.
                                 ______
                                 
                                        Town of Grand Lake,
                                    Grand Lake, CO, March 30, 2006.
Hon. Ken Salazar,
Senator, 400 Rood Avenue, Ste 213, Grand Junction, CO.
    Dear Senator Salazar: The Grand Lake Board of Trustees would like 
to congratulate you on creating the wilderness designation for Rocky 
Mountain National Park. Your time and efforts are truly appreciated. 
The protective mechanisms being put into place to preserve nearly 
250,000 acres of wilderness will bring enjoyment to future generations. 
By the same token, the East Shore Trail Area, excluded from the 
recommended Wilderness Area for the proposed Headwaters Trails Alliance 
trail corridor, will help to ensure that visitors to the area and 
locals alike will have the opportunity to access and appreciate such 
pristine wilderness. We believe that both of these measures will be 
looked upon as forward-thinking when reflected upon through the eyes of 
history.
    The Town is grateful for the opportunity you gave us to be heard; 
the efforts that you made to include our concerns won't soon be 
forgotten by the citizens of Grand County. Our two major concerns have 
been addressed by this proposed legislation: the buffer around the Town 
for fire mitigation and growth, and the preservation of a Headwaters 
Trails Alliance trail corridor along the east side of Shadow Mountain 
Lake that, hopefully, will one day allow for bicycles to ride along 
this beautiful part of Colorado.
    The Grand Lake Board of Trustees supports the Rocky Mountain 
National Park Wilderness Act (S. 1510) and hopes that it can be adopted 
by Congress expeditiously.
    For the Board of Trustees,
                                             Judy M. Burke,
                                                             Mayor.
                                 ______
                                 
                                Headwaters Trails Alliance,
                                                    March 31, 2006.
Senator Ken Salazar,
702 Hart Senate Office Building, Washington, DC.
    Dear Senator Salazar: Headwaters Trails Alliance would like to take 
this opportunity to express our support for the Rocky Mountain National 
Park Wilderness Bill, H.R. 4935, and its companion resolution in the 
United States Senate.
    Headwaters Trails Alliance is a non-profit organization dedicated 
to the planning, construction, and maintenance of trails for all trail 
users in Grand County, Colorado. The members of the Alliance are the 
Town of Winter Park, Town of Fraser, Town of Granby, Town of Hot 
Sulphur Springs, Town of Grand Lake, Grand County, Fraser Valley 
Metropolitan Recreation District, Grand Lake Metropolitan Recreation 
District, and Fraser Valley Partnership for Trails.
    We greatly appreciate the efforts of both Congressman Udall's and 
Senator Salazar's staff on this issue. We feel that the bill as it 
stands will provide Rocky Mountain National Park with the long-term 
protection it deserves, while also providing opportunities for 
community-based trail construction initiatives along Shadow Mountain 
Lake and Lake Granby.
    Thank you for all of your hard work on this resolution, and for 
your consideration of the local communities' needs throughout this 
process.
            Sincerely,
                                              Dawn Packard,
                                                Executive Director.
                                 ______
                                 
                                       Town of Winter Park,
                                    Winter Park, CO, April 3, 2006.
Senator Ken Salazar,
702 Hart Senate Office Building, Washington, DC.
    Dear Senator Salazar: The Town of Winter Park is writing to express 
our support for the S. 1510: Rocky Mountain National Park Wilderness 
Act. As you know, the Town is a funding member of the Headwater Trails 
Alliance and we support the mission of that organization. We appreciate 
your efforts in designating nearly 250,000 acres of wilderness that 
also provides an opportunity for an important trail corridor.
    We appreciate your efforts in working closely with the local 
governments of Grand County on this issue.
            Sincerely,
                                      Harold N. Teverbaugh,
                                                             Mayor.
                                 ______
                                 
              Larimer County Board of County Commissioners,
                                   Fort Collins, CO, April 4, 2006.

    Dear Senators: If you have had the exhilarating experience of 
visiting Rocky Mountain National Park, then you understand the reasons 
why ``wilderness'' designation for the park is most appropriate and 
greatly needed. Rocky Mountain National Park is a gem and a national 
treasure.
    Most Coloradans believe the park already has wilderness 
designation, because that is how it has been managed to date. However, 
to protect this magical place for future generations, Rocky Mountain 
National Parks deserves the wilderness designation reserved for our 
most pristine habitats. With that designation, the park will remain a 
refuge for wildlife and humans alike, for centuries to come.
    Wilderness areas have a distinct benefit to tourism and to the 
economic health of the region and state. Both the Larimer County Board 
of Commissioners and the Estes Park Board of Trustees have recognized 
those benefits in advocating for the protection of the park under the 
banner of ``wilderness.''
    It is my particular hope that we preserve the best attributes of 
our state and our nation for the enjoyment of future generations, who 
will need this treasured park for respite, even more than we do today. 
Rocky Mountain National Park is feeling the unintended impacts of 
today's society, but will survive and prosper through federal 
designation as a protected wilderness area.
    Please preserve Rocky Mountain National Park through wilderness 
designation.
            Sincerely,
                                              Karen Wagner,
                                       Larimer County Commissioner.
                                 ______
                                 
                                        Town of Estes Park,
                                     Estes Park, CO, April 4, 2006.
Senator Craig Thomas,
Dirksen Senate Office Building, Washington DC.
    Dear Senator Thomas: The Town of Estes Park and surrounding 
community supports the proposed Wilderness designation for Rocky 
Mountain National Park. This position was reached after a briefing and 
public hearing in Estes Park attended by approximately 100 area 
residents. At the hearing, nearly two dozen citizens spoke in favor of 
the designation while no one opposed the measure. Following the 
briefing, the Town of Estes Park Board of Trustees passed Resolution 
#17-05 in support of Wilderness designation for Rocky. I have included 
a copy of the resolution for your review.*
---------------------------------------------------------------------------
    * The resolution has been retained in subcommittee files.
---------------------------------------------------------------------------
    Please do not hesitate to contact me if I can be of further 
assistance.
            Sincerely,
                                               John Baudek,
                                                             Mayor.
                                 ______
                                 
Statement of The Wilderness Society; Colorado Environmental Coalition; 
   Colorado Mountain Club; and Southern Rockies Conservation Alliance
    Thank you very much for your leadership toward securing wilderness 
protection for the remarkable scenic and ecological wonders of Rocky 
Mountain National Park. We strongly support that protection and endorse 
your revised legislation to that end.
    While we have reservations about withholding wilderness protection 
for the portion of the park along the East Shore Trail, we consider 
your approach to that question, as described in your revised 
legislation, to be essentially fair. We are pleased to continue working 
with you to clarify provisions affecting that area, and we are 
confident that those last details can be worked out.
    Again, we support your pending legislation and encourage Congress 
to act on it promptly.
                                 ______
                                 
 Statement of S. Floyd Mori, Director, Pubic Policy, Japanese American 
                         Citizens League (JACL)

    Mr. Chairman and Members of the Committee, I am appreciative of 
being given the opportunity of submitting this written testimony to the 
National Parks Subcommittee on S. 1719 and H.R. 1492. My name is Floyd 
Mori. I am the Director of Public Policy and immediate past national 
president of the Japanese American Citizens League, also known as the 
JACL. JACL is the oldest and largest Asian American human and civil 
rights organization in the nation. We have a membership of over 20,000 
and are represented by 113 chapters throughout the country. Our mission 
is to challenge discrimination against any citizen of this country and 
to protect civil liberties of our community.
    JACL has long been associated with the issues surrounding World war 
II internment of Japanese Americans. JACL was the lead organization 
advocating for the passage of H.R. 442 in 1988, which provided redress 
for all living internees and recognized the folly of the WRA program by 
giving each an apology from the President of the United States.
    The latter is extremely important as it was critical that this 
nation have the courage to recognize its mistakes of the past and in so 
doing, serve a lesson to the future. In this regard, I believe it is 
very important that we continue as a nation to learn from our past by 
maintaining the symbols of our history. Hallowed names like Gettysburg, 
Little Big Horn, Valley Forge, Sutter's Fort, and so many others serve 
as invaluable lessons from our past and speak of both the courage and 
the tragedies of that past. History has little meaning if it does not 
teach us about ourselves and about those who have sacrificed for the 
greater good of the nation.
    If we were to allow the existence of the ten world war II 
internment sites to be removed from our collective memory, we only do 
the future a disservice. There are Americans today who do riot believe 
that the United States government could possibly have interned its own 
citizens, do not believe that concentration camps existed within the 
borders of the United States, and equally do not believe that an entire 
segment of our population, though innocent, could possibly have been 
imprisoned solely on the basis of race.
    These internment sites, Manzanar, Topaz, Minidoka, Heart Mountain, 
Tule Lake, Gile River, Poston, Amache, Rohwer, Jerome and what is left 
of them today stand as an important and powerful lesson for this 
nation.
    If we choose to remove all evidence of that experience from this 
land, it would be akin to denying it ever happened. We are better than 
that. We are greater than that as a nation.
    The Japanese American Citizens League is in strong support of S. 
1719 and H.R. 1492, and we urge the members of this committee to 
consider the profound implications of this legislation. We urge your 
approval of this measure to ensure that this World War II internments 
camps stand forever as a lesson for our future.
    Thank you very much for allowing us to submit this statement.


</pre></body></html>
